or more, we will refund it to you on your written request. If we do
not receive a refund request, we will automatically post the credit
to your EECU share savings account. We reserve the right to
delay increasing your credit limit or delay disbursing credit
balance refunds until final collection of non-cash payments on
your account for the maximum period allowed by law.
DEFAULT
You will be in default if you fail to make any Minimum
Payment when due in the proper amount, or if you fail to live
up to the terms of this agreement. You will also be in default
if your creditworthiness materially declines, you become
insolvent, you file for bankruptcy relief, you die, or you cease
to be a member of the Credit Union. In addition, you will be
in default if you have made misleading or incorrect
statements or material omissions of information in your
credit application, or you fail to notify the Credit Union of a
change of your employment, your name, or your address.
Even if the Credit Union accepts a late payment or a partial
payment, we are not waiving our right to accelerate payment
of the account and declare the entire unpaid balance due.
We have the right to demand immediate payment of your full
account balance if you default, subject to our giving you any
notice required by law. You agree to pay our reasonable
collection costs before we take legal action. If we take legal
action to collect what you owe, you agree to pay our
reasonable attorney's fees and court costs, whether the
action we take is a collection suit, an action to enforce a
judgment against you, or an action to protect our interests if
you become a bankruptcy debtor. Collection costs and
attorney's fees will post to your Visa account balance as
Cash Advances and bear interest at the rate applicable to
your Visa account until paid in full.

CHANGES IN AGREEMENT TERMS
Your EECU Visa Account Agreement and Disclosure is your
agreement with EECU governing your credit card transactions,
even though sales and Cash Advance slips and other
documents you sign related to your transactions may have
different terms printed on them. This Agreement can only be
modified by a writing signed by an authorized EECU
representative, an official EECU change in terms notice, or the
order of a court to whose jurisdiction we are subject, such as
a bankruptcy court. No oral statements by EECU employees
can alter the terms of this Agreement.
Changes in terms, unless favorable to you, will generally apply
only to transactions made after the effective date of the
change, as specified by applicable state and federal laws and
regulations. If required by law, we will permit you to reject
certain types of changes, by providing the Credit Union with an
opt-out notice and closing your account. You would then be
permitted to repay any balance on the account under the
terms in effect prior to the changes or as permitted by law.
CANCELLATION/TERMINATION OF AGREEMENT
You or any jointly obligated party may cancel this agreement at
any time by notifying us in writing. If we have given you a
written notice of cancellation and you wish to have your

account re-evaluated for a new line of credit, you must reapply
and be approved.

Notify Us in Case of Errors or Questions About Your
Statement or Electronic Transfers

We may reduce your credit line from time to time, or with good
cause, revoke your card and terminate this agreement. We will
give you thirty days' notice before we reduce or terminate your
account without cause. But as indicated, if you breach this
agreement we can terminate it without prior notice to you.
Termination by either of us does not affect your obligation to
pay the account balance, including finance charges. Cards
and loan drafts remain our property and you must recover and
surrender to us all cards and loan drafts upon our request and
upon termination of this agreement.

If you think your statement or other documentation is wrong or
if you need more information about a transaction on your
statement, write us on a separate sheet at: Educational
Employees Credit Union, Card Services, P.O. Box 5242, Fresno
CA 93755-5242. Write to us as soon as possible. We must hear
from you no later than 60 days after the error appeared on the
first statement. You can telephone us at (559) 437-7700 or toll
free at (800) 538-EECU, but doing so will not preserve your
rights.

CREDIT INFORMATION RETAINED AND PROVIDED TO
OTHERS
You authorize us to investigate your credit standing when
opening, renewing, or reviewing your account, and you
authorize us to disclose information regarding your account to
credit bureaus and other creditors who inquire of us about your
credit standing, to the extent authorized by law.
As required by law, you are hereby notified that a negative
credit report reflecting on your credit record may be submitted
to a credit reporting agency, if you fail to fulfill the terms of your
credit obligation.
PERMISSION TO CONTACT YOU
By providing your telephone number you give the Credit Union
(and its agents, third party representatives and service
providers) permission to contact you regarding your accounts,
transactions and services using live representatives,
automated dialing services, prerecorded messages and text
messages. You give the Credit Union permission to leave
messages, including pre-recorded/artificial voice messages,
relating to your accounts, transactions and services. If you
provide a cellular/mobile number you understand that your
carrier may charge fees to receive calls, messages or texts.
You agree to, at all times, provide the Credit Union with at least
one telephone number at which you can be reached during
business hours.

YOUR BILLING RIGHTS
KEEP THIS NOTICE FOR FUTURE USE
STATE AND LOCAL LAW: The following summary of your
rights under federal law does not cover all rights you may
have under State and Local law. If, under State or local law,
you have a longer period of time in which to send an inquiry
to the Credit Union concerning your statement, reliance on
any such longer time period may result in your losing
important rights which could be preserved by acting more
promptly under federal law. State or local provisions, if any,
only become operative upon the expiration of the time
period provided by Federal Regulation Z for submitting a
proper written notification of an error. This notice contains
important information about your rights and responsibilities
under the Fair Credit Billing Act.

In your letter, give us the following information:
• Your name and account number.
• The dollar amount of the suspected error.
• A description of the error and explanation of why you believe
there is an error. If you need more information, describe the
item you are not sure about.
How to Stop Payment of a Pre-authorized Electronic
Fund Transfer
If you have authorized us to make your Visa payment
automatically from your share draft account, you can stop the
payment on any amount you think is wrong. To stop payment
you must contact us in writing within 3 business days before
the automatic payment is scheduled to occur. If you telephone
your request, we will require you to confirm your verbal request
in writing. If you order us to stop one of these payments 3
business days or more before the transfer is scheduled, and
we do not do so, we will be liable for your losses or damages
up to the amount of the transfer.
Your Rights and Our Responsibilities After We Receive
Your Written Notice of Error
We must acknowledge your letter within 30 days, unless we have
corrected the error by then. Within 90 days, we must either correct
the error or explain why we believe the statement is correct.
After we receive your letter and if you have not yet paid the
disputed amount, we cannot try to collect any amount you
question, or report you as delinquent. We can continue to bill
you for the amount you question, including finance charges,
and we can apply any unpaid amount against your credit limit.
You do not have to pay the questioned amount while we are
investigating, but you are still obligated to pay the parts of your
statement that are not in question.
If we find that we made a mistake on your statement, you will not
have to pay any finance charges related to any questioned
amount. If we did not make a mistake, you may have to pay the
finance charge, and you will have to make up any missed
payments on the questioned amount. In either case, we will send
you a statement of the amount you owe and the date that it is due.
If you fail to pay the amount that we think you owe, we may
report you as delinquent. However, if our explanation does not
satisfy you and you write to us within 10 days telling us that you
still refuse to pay, we must tell anyone we report you to that you
have a question about your statement. We must tell you the
name of anyone we reported you to and we must let them
know when the matter has been settled.

Special Rule for Credit Card Purchases
If you have a problem with the quality of property or services
that you purchase with a credit card and you have tried in good
faith to correct the problem with the merchant, you may have
the right not to pay the remaining amount due on the property
or services. There are two limitations on this right:
a) You must have made the purchase in your home state, or if
not within your home state within 100 miles of your current
mailing address; and
(b) The purchase price must have been more than $50. These
limitations do not apply if we own or operate the merchant,
or if we mailed you the advertisement for the property or
services.
Under California law our right to recover outstanding credit
extended to you for Purchases is subject to any defenses that
you have against the seller, if:
1. The purchase price of the item in question exceeded $50;
2. The purchase was made in California;
3. You made a written demand on the retailer and made a
good faith attempt to get satisfaction of your complaint;
and
4. You notify us, in writing, of the name of the seller, the date
of purchase, the price paid, the goods or services
purchased, the nature of your defense and the acts which
you took to obtain satisfaction from the seller.
The amount to which the defense applies is limited to the
amount outstanding on the purchase as well as late charges
and finance charges at the time the written demand is
received by us. This remedy is the only one you have against
us. Your rights are limited to those circumstances outlined in
California Civil Code § 1747.90. Purchases with cash or check
are not included in this section, even though you used your
credit card to validate your credit. We cannot penalize you by
either giving out unfavorable credit information about you or
canceling or refusing to renew your credit card solely because
you obtained relief under the remedies you have for correcting
billing errors.
TERMS APPLICABLE TO VISA PLATINUM MYEECU
REWARDS PROGRAM
Visa Platinum cardholders may participate in the MYEECU
Rewards program which is governed by the Program Rules
outlined in the CURewards brochure. The following additional
rules apply to the CURewards program:
a. No points are earned for a balance transfer from an existing
EECU Visa account or from another credit card.
b. Points will accrue over five calendar years and will expire on
a first-in-first-out basis annually; points earned in calendar
year one will expire as of the last day of calendar year five.
(For example, points earned in 2014 will expire December
31, 2019; points earned in 2015 will expire December 31,
2020, etc.).
c. If your account is closed or becomes inactive for 18
consecutive months or if you fail to make the minimum
payment due by the payment due date for two consecutive
billing periods, your points may be forfeited.

ATM DISCLOSURE
You may use your card to obtain Cash Advances through
Automated Teller Machines that are part of a nationwide network
of Visa ATMs. These special provisions apply.
AVAILABLE SERVICES
1. The amount of cash you can obtain may vary depending on
the ATM you use.
2. ATM service is generally available seven days a week, 24
hours a day.
DOCUMENTATION OF TRANSACTIONS
Cash Advances using your Visa card at an ATM will be shown on
a transaction receipt and on your periodic statement.
CREDIT UNION LIABILITY
If we do not properly complete a transaction according to our
agreement with you, we will be liable for your direct losses or
damages. However, there are some exceptions. We will not be
liable, if:
a. through no fault of ours, you do not have sufficient available
credit to make the transaction;
b. the ATM system was not working properly and you knew
about the breakdown when you started the transaction;
c. the money in your account is subject to legal process or other
claim;
d. your PIN (Personal Identification Number) has been reported
missing and we have blocked its use;
e. circumstances beyond our control, such as fire, flood,
electrical failure, or malfunction of the central data processing
facility prevent the completion of the transaction despite our
reasonable precautions; or
f. there are other lawful exceptions established by us and you
are given proper advance notice of them.
In no event will the Credit Union be liable for consequential
indirect costs or damages.
FEES
If you perform a Cash Advance at an ATM not owned by us, the
owner of the ATM may charge an ATM transaction fee.
SECURITY
Do not use an ATM unless it appears safe to do so. Do not key
in your PIN if someone is looking. Be sure you take your card and
receipt when you are done. Put your money away quickly and
leave the site.

VISA ACCOUNT AGREEMENT
and
DISCLOSURE
EDUCATIONAL EMPLOYEES CREDIT UNION
Shaded Paragraphs Are Truth in Lending Requirements.
This agreement outlines the terms and conditions of your
Educational Employees Credit Union Visa account and provides
certain disclosure information required by government
regulations. Keep this disclosure with your permanent
documents.
In this document, the words "you," "your," and "yours," refer to
each and all of those who apply for a Visa credit card, sign the
agreement, or all parties who use the card. The words "we," "us,"
"our," “Credit Union,” and “EECU” refer to the Educational
Employees Credit Union. The term "card" refers to the Visa
credit card received with this agreement and any duplicates
and/or renewals we issue. The term "account" refers to your Visa
credit card line of credit account with us.
You acknowledge receipt of a copy of this Visa Account
Agreement and Disclosure. By using the card, any access
device, or by authorizing another person to use your account,
you agree to and accept the terms as stated.
GENERAL TERMS
The terms of this agreement must be read together as part of the
whole agreement. When the singular is used the plural is implied
if there is more than one signer. If any part of this agreement is
found to be invalid the other parts shall remain in effect.
Any borrower who receives a card issued under this agreement
must be a member of this Credit Union.
YOUR RESPONSIBILITY
If your application is approved, each applicant will receive a card
and will be able to use the account. The applicants may also
receive Visa convenience checks from time to time at the Credit
Union's option. Each applicant is liable to repay the account
under the terms of this agreement.

Federally Insured by NCUA
©EECU
(V.2.22.2010)

DISC 2 25M (12/15)

M-116986

You agree to make your payments when due, and in an amount

not smaller than the minimum monthly payment required as
disclosed in the paragraph entitled, "Making Payments." On a
joint account, each party is equally responsible for all charges
under this agreement, even though another person has been
directed to pay the debt by agreement of court order such as a
divorce decree. You agree to notify us immediately of any change
in your name, address, or any change in your financial condition
which may affect your ability to repay.
PERSONS USING YOUR ACCOUNT
You are obligated to repay any charges resulting from the use
of the card or a Visa convenience check by another person
with your permission whether or not the person stays within
the limits set by you. If you notify us that a previously
authorized user is no longer authorized to use the account, we
will follow our usual procedures to preclude their further use of
the account. If you cannot get the card back from the user, you
must let us know and we will treat the card as stolen.
Otherwise you must return the card to us. You will be liable for
all use of the card up to the time you notify us that the
authorization is terminated.
Any persons who use the card or convenience checks are also
obligated to repay the Credit Union for all charges incurred
because of their use of the card or loan drafts.
OUR RESPONSIBILITY
If you have available credit and are not otherwise in default, we
will honor Purchases and Balance Transfers up to your credit limit
and Cash Advances up to your Cash Advance limit. We will
provide you with a timely monthly statement that contains all
information and disclosure required by law.
LOST/STOLEN OR UNAUTHORIZED USE OF CARD
Unless you have notified us that the card has been lost or
stolen, all transactions, whether made by you or another
person, will be assumed to have been made with your
consent. You agree to report the loss, theft, or unauthorized
use of your card promptly. Report your lost/stolen card to (559)
437-7700 or (800) 538-EECU. You may also write to us at P.O.
Box 5242, Fresno CA 93755-5242. Calling us is the best way
to keep losses down. Per Visa operating rules, you will
generally have no liability for unauthorized use of your card.
However, it benefits all Credit Union members if losses due to
unauthorized use claims are kept to a minimum.
The zero liability rule does not apply to certain point-of-sale and
ATM transactions as set forth in Visa operating rules. Your
maximum liability for unauthorized use of a Visa credit card for
these point-of-sale or ATM transactions is $50. Your liability may
increase if you report the loss or theft of your card more than two
business days (48 hours) after the discovery of the loss or theft.
You will have no liability for unauthorized transactions that occur
after you report the loss or theft of your card to us.
You may create a special "Verified by Visa" password to verify
your identity and provide added protection to your online
Purchases. You can create your own password at
www.visa.com/verified.

HOW TO USE YOUR VISA ACCOUNT
Your Visa account can be accessed in the ways detailed below.
Your monthly Visa statement will identify the merchant, electronic
terminal, or financial institution at which transactions were made;
but sales, Cash Advances, and credit slips cannot be returned with
the statement. You will retain your copy of such slips furnished at
the time of the transaction in order to verify the monthly statement.
(a) Cash Advances: You may obtain Cash Advances on your Visa
account at any branch of the Credit Union up to your cash
advance limit, which may be lower than your credit limit. You
may obtain Cash Advances at other financial institutions that
honor Visa cards, subject to those institutions' limitations.
Cash Advances are subject to fees as outlined in the “OTHER
CHARGES” section of this agreement.
(b) Cash Advances at an Automated Teller Machine (ATM): ATMs
located across the nation will disburse Cash Advances on
your card; a Visa emblem will be shown on the face of each
machine. To receive a Cash Advance from a participating Visa
ATM, you must insert your card and input your Personal
Identification Number (PIN) which you will receive within 5 to
10 days after you receive your card. The maximum Cash
Advance may vary between ATMs. The use of your credit card
for ATM access is subject to additional ATM disclosure terms.
Cash Advances are subject to fees as outlined in the “OTHER
CHARGES” section of this agreement.
IMPORTANT: FOR YOUR PROTECTION, DO NOT WRITE
YOUR PIN NUMBER ON YOUR CARD OR KEEP IT NEAR
YOUR CARD.
(c) Purchases: You may use your Visa card for Purchases anywhere
the card is honored by presenting the card to the merchant and
signing the sales slip or voucher. You can also make Purchases
by mail, telephone, or via the internet by providing the merchant
with your card number and expiration date.
(d) Visa Convenience Checks: The Credit Union from time to time
may send you Visa convenience checks. You can use them to
make Purchases or to obtain loan advances. You may not use
the convenience checks to pay any outstanding balance you
owe under this agreement. Visa convenience checks are
treated as a Cash Advance for purposes of calculating finance
charges, whether you use them to make a Purchase or to
obtain a Cash Advance. Use of Visa convenience checks are
subject to fees as outlined in the “OTHER CHARGES” section
of this agreement.
Visa convenience checks are subject to the following
additional rules: (i) Merchant dispute rights to which credit
cards are subject do not apply to use of Visa convenience
checks. (ii) To stop payment on a Visa convenience checks,
you must provide your account number, the draft number and
the exact amount of the draft; otherwise our computer system
will not be able to find the draft and stop payment on it and you
will need to resolve any disputes directly with the payee of the
draft. (iii) Destroy any Visa convenience checks you do not
wish to use. (iv) We will not be responsible for unauthorized
convenience checks paid on your account unless you report
them to us within 60 days after we mail you the first statement
on which they appear. (v) Report any lost or stolen
convenience checks immediately; otherwise you may be liable
if an unauthorized convenience check is paid on your account.

(e) Foreign Transactions: Purchases and Cash Advances made
in foreign countries and foreign currencies will be billed to
you in U.S. dollars. The exchange rate between the
transaction currency and the billing currency (U.S. dollars)
will be (a) a rate selected by Visa from the range of rates
available in the wholesale currency markets for the
applicable central processing date, which rate may vary
from the rate Visa itself receives, or (b) the governmentmandated rate in effect for the applicable central
processing date, in each instance, plus or minus any
adjustment determined by the Credit Union. If a Cash
Advance is conducted an additional fee of 2% of the
transaction amount ($5 minimum) will apply.
(f) Inquiries: Information about your Visa account is available 24
hours a day through VISA PIN POINT service or through the
Home Banking section of the Credit Union website. Either
service will provide account information such as your balance,
last payment received and/or your available credit. VISA PIN
POINT can be accessed with a touch-tone telephone by
calling (800) 892-9603. The Credit Union website address is
www.myEECU.org.
(g) Prohibited Transactions: You agree that you will not use or
allow your Visa account to be used for illegal transactions
such as illegal gambling. If we reasonably believe a
transaction is unlawful we have the right but not the duty to
decline it. Display of a Visa logo by a merchant does not
necessarily mean that the transaction is lawful.
Responsibility for determining the legality of your Visa
transactions rests with you, not with us. The actual or
alleged illegality of an authorized transaction will not be
defense to your obligation to pay.
(h) We will not be liable for the failure or refusal of any merchant
to accept your Visa Card or Visa convenience checks.
YOUR CREDIT LIMIT
If your Visa application is approved, the Credit Union will
establish a self-replenishing line of credit for you, and notify
you of the amount in writing. This means that you can borrow
the full amount of the credit limit, repay the principal in full or
part, and borrow again up to your maximum amount of credit,
as long as you remain a member in good standing of the Credit
Union and continue to be creditworthy. Your credit limit and
the unused portion still available to you will show on your
monthly statement. Your available amount is reduced by the
principal balance owing, accrued finance charges, fees and
late charges, if any. You agree not to let the account balance
exceed your approved credit limit.
If you wish to increase your credit limit, you must apply to the
Credit Union by written, phone, or online application, which
must be approved. Unless prohibited by law, we may increase
your credit limit at any time at our option and will notify you in
writing if we do this. Your credit limit will be reviewed
periodically and you may be requested to provide current
information. We will notify you in writing if we increase,
decrease, or terminate with good cause your credit limit and/or
account. Good cause includes, but is not limited to, your
failure to comply with this agreement or our adverse reevaluation of your creditworthiness.

BALANCE TRANSFERS
You may ask the Credit Union to transfer the balance of your
other credit cards to your EECU Visa account by sending us a
written request to do so or by using a Visa convenience check.
Your written request must state the name of the company, the
address, the account number and the amount of the payoff or
must include a payment stub. Balance Transfers are subject to
fees as outlined in the “OTHER CHARGES” section of this
agreement. If you elect to transfer balances to your EECU Visa
account, the following will apply:
(a) Transfer Amount: We will transfer as much as possible without
exceeding your credit line.
(b) Minimum Payments: Allow four (4) weeks for balances to be
transferred. You should continue paying the minimum
monthly amount due on your other accounts until the
balances have been transferred. We are not responsible for
any late payments, finance charges, disputed amounts or
errors on your other accounts.
(c) Billing Disputes: If you currently have any amounts in a billing
dispute, we recommend that they not be transferred because
you may lose your billing dispute rights.
(d) Finance Charge: Balance Transfers are treated as Cash
Advances and are assessed finance charges from the
transaction date. Finance charges continue until payment in
full is received for the balance.
(e) Closing Accounts: Transferring balances may not
automatically close your other accounts. To do so, you should
contact each company directly.
MONTHLY PAYMENTS
You agree to pay all amounts borrowed plus interest, fees and
other charges called for by this agreement in U.S. dollars using
lawful instruments drawn on U.S. financial institutions. You
agree to make at least your required minimum monthly
payment on or before the due date on your periodic statement.
MINIMUM PAYMENT SCHEDULE
BALANCE
MINIMUM PAYMENT
Under $20
Entire Balance
$20 to $1,000
$20
Over $1,000
2% of the principal balance
Your minimum payment must also include any past-due or overlimit amounts. If your balance exceeds $1,000, increased balances
will result in increased minimum payments.
The minimum payment amount may be applied to the lowest rate
balance. To the extent your payment exceeds the required minimum;
the excess will be applied first to higher rate balances and then to
lower rate balances. Subject to the requirement that payments in
excess of the minimum be applied to higher-rate balances first,
payments are applied in the following order: (a) previously billed
interest, fees and other charges; (b) previously billed Purchases and
Cash Advances; and (c) interest, fees and other charges on
Purchases and Cash Advances during the current billing cycle; and
(d) Purchases and Cash Advances during the current billing cycle.
If you take advantage of any promotional or introductory APR
offers, payments to your account may be applied to the
balances at the promotional or introductory APR offer first and

not to balances with higher APRs until the promotional or
introductory APR balances have been paid in full or have
expired.
You can pay all or part of your full balance due at any time
without prepayment penalty. If you make more than your
required minimum payment, you will still be required to make
your next month's required minimum payment by its due date.
Making more than the required minimum payment will
generally reduce the time it takes to pay off your balance and
the interest you pay.
We may offer “skip payment” promotions from time to time. If
you elect to skip your payment, interest will continue to accrue.
Our offering you a skip payment will not waive our right to
require you to make any other payment on its due date.
MAKING PAYMENTS
Mail the top half of your monthly Visa statement with your check
or other payment instrument to the address shown on your
periodic statement. You may also make your payment at any of
our offices or through the EECU Home Banking site by making a
transfer from your deposit account. It is your responsibility to
ensure that your payment arrives at our payment processing
center on time. We are not responsible for mail lost, damaged or
misdelivered by the postal service.
DO NOT INCLUDE PAYMENTS FOR OTHER
OBLIGATIONS WITH YOUR CREDIT CARD PAYMENT

EECU

FINANCE CHARGES
You will pay interest and other charges on your Visa account.
Interest and some of the other charges are called “Finance
Charges.” Finance Charges are the amounts of money that
you pay for the money that you borrow. In addition to
interest, some of the fees in the “OTHER CHARGES” section
of your Visa Account Agreement and Disclosure, shown in
bold, are considered Finance Charges. To make Visa
accounts available to as many members as possible, we
offer a variety of rates. The actual rate of interest applicable
to your account will depend on a number of factors we may
lawfully consider, including but not limited to your credit
history. When you are approved for a Visa account, we will
disclose the ANNUAL PERCENTAGE RATE and any variable
rate formula that will apply to your Educational Employees
Credit Union Visa account in writing before you can start
using your account.
Finance Charge Calculation Method: Average Daily Balance
(including new purchases): We start by calculating the average
daily balance for the billing period. For each day of the billing
period, we determine the daily balance by adding up all Cash
Advances, Purchases, and debit adjustments plus any amount
outstanding as of your most recent payment, then subtracting
any payments and credits for that day. We then add all of the
daily balances for the billing period and divide them by the
number of days in the billing period. We then multiply the
average daily balance by the monthly periodic rate to
determine the finance charge for that billing period. The
minimum finance charge in a billing cycle is $.50.

Grace Period: You will have a grace period of 25 days on
average for repayment of Purchases. Cash Advances and
Balance Transfers are subject to finance charges from the day
they post to your account until they are paid in full. If you do not
pay your entire statement balance in full within the 25-day grace
period, finance charges will accrue.
We can change your interest rate and other finance charges
by giving you advance notice as is required by applicable
law. Unless you have a variable rate account, changes will
generally apply to transactions initiated more than 14 days
after provision of the notice.
OTHER CHARGES
In addition to Finance Charges, the following fees may be
assessed to your Visa Account. They will be added to the
principal balance and will accrue interest until paid:
•
•
•
•
•
•
•
•
•
•
•

•
•

Late Payment:
Returned Payment:
Over-the-Credit Limit:
Balance Transfer:

Up to $15.00
$24.00
None
$5.00 or 2% of the transfer
amount, whichever is greater
Cash Advance:*
$5.00 or 2% of the cash advance
amount, whichever is greater
Account Research:
$20.00 per hour, one hour
minimum
Statement Copies:
$3.00 per statement
Replacement Cards:
$5.00 per card, plus additional
charge for rush orders
Stop Payment on Recurring
Visa Transaction:
$15.00
Stop Payment on
Visa Convenience Check: $15.00
Visa Convenience Check: The standard cash advance fee
applies to each Visa
Convenience Check paid
Visa Sales Slip Copy:
$12.00 each
Visa Card Rush Order:
2 days - $25.00; 4 days - $15.00

For new accounts, fees and charges are also stated in the Truth
in Lending Credit Card Opening Disclosure incorporated into
this Agreement by reference and provided to you separately
when your account was opened.
*The following are considered Cash Advances: (a) obtaining
cash at an ATM using your Visa card; (b) a Cash Advance at a
financial institution or other entity that offer Visa Cash
Advances; (c) funds from the use of a Visa convenience check;
(d) a Balance Transfer.

CREDITS
If a merchant who honors your card gives you credit for returns
or adjustments, he will do so by sending us a credit slip which we
will post to your account. You will be liable for any finance
charges that accrue between the end of your grace period and
the time the credit posts to your account. If your credits and
payments exceed what you owe, the amount will be applied
against future Purchases and Cash Advances. If the credit is $1

not smaller than the minimum monthly payment required as
disclosed in the paragraph entitled, "Making Payments." On a
joint account, each party is equally responsible for all charges
under this agreement, even though another person has been
directed to pay the debt by agreement of court order such as a
divorce decree. You agree to notify us immediately of any change
in your name, address, or any change in your financial condition
which may affect your ability to repay.
PERSONS USING YOUR ACCOUNT
You are obligated to repay any charges resulting from the use
of the card or a Visa convenience check by another person
with your permission whether or not the person stays within
the limits set by you. If you notify us that a previously
authorized user is no longer authorized to use the account, we
will follow our usual procedures to preclude their further use of
the account. If you cannot get the card back from the user, you
must let us know and we will treat the card as stolen.
Otherwise you must return the card to us. You will be liable for
all use of the card up to the time you notify us that the
authorization is terminated.
Any persons who use the card or convenience checks are also
obligated to repay the Credit Union for all charges incurred
because of their use of the card or loan drafts.
OUR RESPONSIBILITY
If you have available credit and are not otherwise in default, we
will honor Purchases and Balance Transfers up to your credit limit
and Cash Advances up to your Cash Advance limit. We will
provide you with a timely monthly statement that contains all
information and disclosure required by law.
LOST/STOLEN OR UNAUTHORIZED USE OF CARD
Unless you have notified us that the card has been lost or
stolen, all transactions, whether made by you or another
person, will be assumed to have been made with your
consent. You agree to report the loss, theft, or unauthorized
use of your card promptly. Report your lost/stolen card to (559)
437-7700 or (800) 538-EECU. You may also write to us at P.O.
Box 5242, Fresno CA 93755-5242. Calling us is the best way
to keep losses down. Per Visa operating rules, you will
generally have no liability for unauthorized use of your card.
However, it benefits all Credit Union members if losses due to
unauthorized use claims are kept to a minimum.
The zero liability rule does not apply to certain point-of-sale and
ATM transactions as set forth in Visa operating rules. Your
maximum liability for unauthorized use of a Visa credit card for
these point-of-sale or ATM transactions is $50. Your liability may
increase if you report the loss or theft of your card more than two
business days (48 hours) after the discovery of the loss or theft.
You will have no liability for unauthorized transactions that occur
after you report the loss or theft of your card to us.
You may create a special "Verified by Visa" password to verify
your identity and provide added protection to your online
Purchases. You can create your own password at
www.visa.com/verified.

HOW TO USE YOUR VISA ACCOUNT
Your Visa account can be accessed in the ways detailed below.
Your monthly Visa statement will identify the merchant, electronic
terminal, or financial institution at which transactions were made;
but sales, Cash Advances, and credit slips cannot be returned with
the statement. You will retain your copy of such slips furnished at
the time of the transaction in order to verify the monthly statement.
(a) Cash Advances: You may obtain Cash Advances on your Visa
account at any branch of the Credit Union up to your cash
advance limit, which may be lower than your credit limit. You
may obtain Cash Advances at other financial institutions that
honor Visa cards, subject to those institutions' limitations.
Cash Advances are subject to fees as outlined in the “OTHER
CHARGES” section of this agreement.
(b) Cash Advances at an Automated Teller Machine (ATM): ATMs
located across the nation will disburse Cash Advances on
your card; a Visa emblem will be shown on the face of each
machine. To receive a Cash Advance from a participating Visa
ATM, you must insert your card and input your Personal
Identification Number (PIN) which you will receive within 5 to
10 days after you receive your card. The maximum Cash
Advance may vary between ATMs. The use of your credit card
for ATM access is subject to additional ATM disclosure terms.
Cash Advances are subject to fees as outlined in the “OTHER
CHARGES” section of this agreement.
IMPORTANT: FOR YOUR PROTECTION, DO NOT WRITE
YOUR PIN NUMBER ON YOUR CARD OR KEEP IT NEAR
YOUR CARD.
(c) Purchases: You may use your Visa card for Purchases anywhere
the card is honored by presenting the card to the merchant and
signing the sales slip or voucher. You can also make Purchases
by mail, telephone, or via the internet by providing the merchant
with your card number and expiration date.
(d) Visa Convenience Checks: The Credit Union from time to time
may send you Visa convenience checks. You can use them to
make Purchases or to obtain loan advances. You may not use
the convenience checks to pay any outstanding balance you
owe under this agreement. Visa convenience checks are
treated as a Cash Advance for purposes of calculating finance
charges, whether you use them to make a Purchase or to
obtain a Cash Advance. Use of Visa convenience checks are
subject to fees as outlined in the “OTHER CHARGES” section
of this agreement.
Visa convenience checks are subject to the following
additional rules: (i) Merchant dispute rights to which credit
cards are subject do not apply to use of Visa convenience
checks. (ii) To stop payment on a Visa convenience checks,
you must provide your account number, the draft number and
the exact amount of the draft; otherwise our computer system
will not be able to find the draft and stop payment on it and you
will need to resolve any disputes directly with the payee of the
draft. (iii) Destroy any Visa convenience checks you do not
wish to use. (iv) We will not be responsible for unauthorized
convenience checks paid on your account unless you report
them to us within 60 days after we mail you the first statement
on which they appear. (v) Report any lost or stolen
convenience checks immediately; otherwise you may be liable
if an unauthorized convenience check is paid on your account.

(e) Foreign Transactions: Purchases and Cash Advances made
in foreign countries and foreign currencies will be billed to
you in U.S. dollars. The exchange rate between the
transaction currency and the billing currency (U.S. dollars)
will be (a) a rate selected by Visa from the range of rates
available in the wholesale currency markets for the
applicable central processing date, which rate may vary
from the rate Visa itself receives, or (b) the governmentmandated rate in effect for the applicable central
processing date, in each instance, plus or minus any
adjustment determined by the Credit Union. If a Cash
Advance is conducted an additional fee of 2% of the
transaction amount ($5 minimum) will apply.
(f) Inquiries: Information about your Visa account is available 24
hours a day through VISA PIN POINT service or through the
Home Banking section of the Credit Union website. Either
service will provide account information such as your balance,
last payment received and/or your available credit. VISA PIN
POINT can be accessed with a touch-tone telephone by
calling (800) 892-9603. The Credit Union website address is
www.myEECU.org.
(g) Prohibited Transactions: You agree that you will not use or
allow your Visa account to be used for illegal transactions
such as illegal gambling. If we reasonably believe a
transaction is unlawful we have the right but not the duty to
decline it. Display of a Visa logo by a merchant does not
necessarily mean that the transaction is lawful.
Responsibility for determining the legality of your Visa
transactions rests with you, not with us. The actual or
alleged illegality of an authorized transaction will not be
defense to your obligation to pay.
(h) We will not be liable for the failure or refusal of any merchant
to accept your Visa Card or Visa convenience checks.
YOUR CREDIT LIMIT
If your Visa application is approved, the Credit Union will
establish a self-replenishing line of credit for you, and notify
you of the amount in writing. This means that you can borrow
the full amount of the credit limit, repay the principal in full or
part, and borrow again up to your maximum amount of credit,
as long as you remain a member in good standing of the Credit
Union and continue to be creditworthy. Your credit limit and
the unused portion still available to you will show on your
monthly statement. Your available amount is reduced by the
principal balance owing, accrued finance charges, fees and
late charges, if any. You agree not to let the account balance
exceed your approved credit limit.
If you wish to increase your credit limit, you must apply to the
Credit Union by written, phone, or online application, which
must be approved. Unless prohibited by law, we may increase
your credit limit at any time at our option and will notify you in
writing if we do this. Your credit limit will be reviewed
periodically and you may be requested to provide current
information. We will notify you in writing if we increase,
decrease, or terminate with good cause your credit limit and/or
account. Good cause includes, but is not limited to, your
failure to comply with this agreement or our adverse reevaluation of your creditworthiness.

BALANCE TRANSFERS
You may ask the Credit Union to transfer the balance of your
other credit cards to your EECU Visa account by sending us a
written request to do so or by using a Visa convenience check.
Your written request must state the name of the company, the
address, the account number and the amount of the payoff or
must include a payment stub. Balance Transfers are subject to
fees as outlined in the “OTHER CHARGES” section of this
agreement. If you elect to transfer balances to your EECU Visa
account, the following will apply:
(a) Transfer Amount: We will transfer as much as possible without
exceeding your credit line.
(b) Minimum Payments: Allow four (4) weeks for balances to be
transferred. You should continue paying the minimum
monthly amount due on your other accounts until the
balances have been transferred. We are not responsible for
any late payments, finance charges, disputed amounts or
errors on your other accounts.
(c) Billing Disputes: If you currently have any amounts in a billing
dispute, we recommend that they not be transferred because
you may lose your billing dispute rights.
(d) Finance Charge: Balance Transfers are treated as Cash
Advances and are assessed finance charges from the
transaction date. Finance charges continue until payment in
full is received for the balance.
(e) Closing Accounts: Transferring balances may not
automatically close your other accounts. To do so, you should
contact each company directly.
MONTHLY PAYMENTS
You agree to pay all amounts borrowed plus interest, fees and
other charges called for by this agreement in U.S. dollars using
lawful instruments drawn on U.S. financial institutions. You
agree to make at least your required minimum monthly
payment on or before the due date on your periodic statement.
MINIMUM PAYMENT SCHEDULE
BALANCE
MINIMUM PAYMENT
Under $20
Entire Balance
$20 to $1,000
$20
Over $1,000
2% of the principal balance
Your minimum payment must also include any past-due or overlimit amounts. If your balance exceeds $1,000, increased balances
will result in increased minimum payments.
The minimum payment amount may be applied to the lowest rate
balance. To the extent your payment exceeds the required minimum;
the excess will be applied first to higher rate balances and then to
lower rate balances. Subject to the requirement that payments in
excess of the minimum be applied to higher-rate balances first,
payments are applied in the following order: (a) previously billed
interest, fees and other charges; (b) previously billed Purchases and
Cash Advances; and (c) interest, fees and other charges on
Purchases and Cash Advances during the current billing cycle; and
(d) Purchases and Cash Advances during the current billing cycle.
If you take advantage of any promotional or introductory APR
offers, payments to your account may be applied to the
balances at the promotional or introductory APR offer first and

not to balances with higher APRs until the promotional or
introductory APR balances have been paid in full or have
expired.
You can pay all or part of your full balance due at any time
without prepayment penalty. If you make more than your
required minimum payment, you will still be required to make
your next month's required minimum payment by its due date.
Making more than the required minimum payment will
generally reduce the time it takes to pay off your balance and
the interest you pay.
We may offer “skip payment” promotions from time to time. If
you elect to skip your payment, interest will continue to accrue.
Our offering you a skip payment will not waive our right to
require you to make any other payment on its due date.
MAKING PAYMENTS
Mail the top half of your monthly Visa statement with your check
or other payment instrument to the address shown on your
periodic statement. You may also make your payment at any of
our offices or through the EECU Home Banking site by making a
transfer from your deposit account. It is your responsibility to
ensure that your payment arrives at our payment processing
center on time. We are not responsible for mail lost, damaged or
misdelivered by the postal service.
DO NOT INCLUDE PAYMENTS FOR OTHER
OBLIGATIONS WITH YOUR CREDIT CARD PAYMENT

EECU

FINANCE CHARGES
You will pay interest and other charges on your Visa account.
Interest and some of the other charges are called “Finance
Charges.” Finance Charges are the amounts of money that
you pay for the money that you borrow. In addition to
interest, some of the fees in the “OTHER CHARGES” section
of your Visa Account Agreement and Disclosure, shown in
bold, are considered Finance Charges. To make Visa
accounts available to as many members as possible, we
offer a variety of rates. The actual rate of interest applicable
to your account will depend on a number of factors we may
lawfully consider, including but not limited to your credit
history. When you are approved for a Visa account, we will
disclose the ANNUAL PERCENTAGE RATE and any variable
rate formula that will apply to your Educational Employees
Credit Union Visa account in writing before you can start
using your account.
Finance Charge Calculation Method: Average Daily Balance
(including new purchases): We start by calculating the average
daily balance for the billing period. For each day of the billing
period, we determine the daily balance by adding up all Cash
Advances, Purchases, and debit adjustments plus any amount
outstanding as of your most recent payment, then subtracting
any payments and credits for that day. We then add all of the
daily balances for the billing period and divide them by the
number of days in the billing period. We then multiply the
average daily balance by the monthly periodic rate to
determine the finance charge for that billing period. The
minimum finance charge in a billing cycle is $.50.

Grace Period: You will have a grace period of 25 days on
average for repayment of Purchases. Cash Advances and
Balance Transfers are subject to finance charges from the day
they post to your account until they are paid in full. If you do not
pay your entire statement balance in full within the 25-day grace
period, finance charges will accrue.
We can change your interest rate and other finance charges
by giving you advance notice as is required by applicable
law. Unless you have a variable rate account, changes will
generally apply to transactions initiated more than 14 days
after provision of the notice.
OTHER CHARGES
In addition to Finance Charges, the following fees may be
assessed to your Visa Account. They will be added to the
principal balance and will accrue interest until paid:
•
•
•
•
•
•
•
•
•
•
•

•
•

Late Payment:
Returned Payment:
Over-the-Credit Limit:
Balance Transfer:

Up to $15.00
$24.00
None
$5.00 or 2% of the transfer
amount, whichever is greater
Cash Advance:*
$5.00 or 2% of the cash advance
amount, whichever is greater
Account Research:
$20.00 per hour, one hour
minimum
Statement Copies:
$3.00 per statement
Replacement Cards:
$5.00 per card, plus additional
charge for rush orders
Stop Payment on Recurring
Visa Transaction:
$15.00
Stop Payment on
Visa Convenience Check: $15.00
Visa Convenience Check: The standard cash advance fee
applies to each Visa
Convenience Check paid
Visa Sales Slip Copy:
$12.00 each
Visa Card Rush Order:
2 days - $25.00; 4 days - $15.00

For new accounts, fees and charges are also stated in the Truth
in Lending Credit Card Opening Disclosure incorporated into
this Agreement by reference and provided to you separately
when your account was opened.
*The following are considered Cash Advances: (a) obtaining
cash at an ATM using your Visa card; (b) a Cash Advance at a
financial institution or other entity that offer Visa Cash
Advances; (c) funds from the use of a Visa convenience check;
(d) a Balance Transfer.

CREDITS
If a merchant who honors your card gives you credit for returns
or adjustments, he will do so by sending us a credit slip which we
will post to your account. You will be liable for any finance
charges that accrue between the end of your grace period and
the time the credit posts to your account. If your credits and
payments exceed what you owe, the amount will be applied
against future Purchases and Cash Advances. If the credit is $1

not smaller than the minimum monthly payment required as
disclosed in the paragraph entitled, "Making Payments." On a
joint account, each party is equally responsible for all charges
under this agreement, even though another person has been
directed to pay the debt by agreement of court order such as a
divorce decree. You agree to notify us immediately of any change
in your name, address, or any change in your financial condition
which may affect your ability to repay.
PERSONS USING YOUR ACCOUNT
You are obligated to repay any charges resulting from the use
of the card or a Visa convenience check by another person
with your permission whether or not the person stays within
the limits set by you. If you notify us that a previously
authorized user is no longer authorized to use the account, we
will follow our usual procedures to preclude their further use of
the account. If you cannot get the card back from the user, you
must let us know and we will treat the card as stolen.
Otherwise you must return the card to us. You will be liable for
all use of the card up to the time you notify us that the
authorization is terminated.
Any persons who use the card or convenience checks are also
obligated to repay the Credit Union for all charges incurred
because of their use of the card or loan drafts.
OUR RESPONSIBILITY
If you have available credit and are not otherwise in default, we
will honor Purchases and Balance Transfers up to your credit limit
and Cash Advances up to your Cash Advance limit. We will
provide you with a timely monthly statement that contains all
information and disclosure required by law.
LOST/STOLEN OR UNAUTHORIZED USE OF CARD
Unless you have notified us that the card has been lost or
stolen, all transactions, whether made by you or another
person, will be assumed to have been made with your
consent. You agree to report the loss, theft, or unauthorized
use of your card promptly. Report your lost/stolen card to (559)
437-7700 or (800) 538-EECU. You may also write to us at P.O.
Box 5242, Fresno CA 93755-5242. Calling us is the best way
to keep losses down. Per Visa operating rules, you will
generally have no liability for unauthorized use of your card.
However, it benefits all Credit Union members if losses due to
unauthorized use claims are kept to a minimum.
The zero liability rule does not apply to certain point-of-sale and
ATM transactions as set forth in Visa operating rules. Your
maximum liability for unauthorized use of a Visa credit card for
these point-of-sale or ATM transactions is $50. Your liability may
increase if you report the loss or theft of your card more than two
business days (48 hours) after the discovery of the loss or theft.
You will have no liability for unauthorized transactions that occur
after you report the loss or theft of your card to us.
You may create a special "Verified by Visa" password to verify
your identity and provide added protection to your online
Purchases. You can create your own password at
www.visa.com/verified.

HOW TO USE YOUR VISA ACCOUNT
Your Visa account can be accessed in the ways detailed below.
Your monthly Visa statement will identify the merchant, electronic
terminal, or financial institution at which transactions were made;
but sales, Cash Advances, and credit slips cannot be returned with
the statement. You will retain your copy of such slips furnished at
the time of the transaction in order to verify the monthly statement.
(a) Cash Advances: You may obtain Cash Advances on your Visa
account at any branch of the Credit Union up to your cash
advance limit, which may be lower than your credit limit. You
may obtain Cash Advances at other financial institutions that
honor Visa cards, subject to those institutions' limitations.
Cash Advances are subject to fees as outlined in the “OTHER
CHARGES” section of this agreement.
(b) Cash Advances at an Automated Teller Machine (ATM): ATMs
located across the nation will disburse Cash Advances on
your card; a Visa emblem will be shown on the face of each
machine. To receive a Cash Advance from a participating Visa
ATM, you must insert your card and input your Personal
Identification Number (PIN) which you will receive within 5 to
10 days after you receive your card. The maximum Cash
Advance may vary between ATMs. The use of your credit card
for ATM access is subject to additional ATM disclosure terms.
Cash Advances are subject to fees as outlined in the “OTHER
CHARGES” section of this agreement.
IMPORTANT: FOR YOUR PROTECTION, DO NOT WRITE
YOUR PIN NUMBER ON YOUR CARD OR KEEP IT NEAR
YOUR CARD.
(c) Purchases: You may use your Visa card for Purchases anywhere
the card is honored by presenting the card to the merchant and
signing the sales slip or voucher. You can also make Purchases
by mail, telephone, or via the internet by providing the merchant
with your card number and expiration date.
(d) Visa Convenience Checks: The Credit Union from time to time
may send you Visa convenience checks. You can use them to
make Purchases or to obtain loan advances. You may not use
the convenience checks to pay any outstanding balance you
owe under this agreement. Visa convenience checks are
treated as a Cash Advance for purposes of calculating finance
charges, whether you use them to make a Purchase or to
obtain a Cash Advance. Use of Visa convenience checks are
subject to fees as outlined in the “OTHER CHARGES” section
of this agreement.
Visa convenience checks are subject to the following
additional rules: (i) Merchant dispute rights to which credit
cards are subject do not apply to use of Visa convenience
checks. (ii) To stop payment on a Visa convenience checks,
you must provide your account number, the draft number and
the exact amount of the draft; otherwise our computer system
will not be able to find the draft and stop payment on it and you
will need to resolve any disputes directly with the payee of the
draft. (iii) Destroy any Visa convenience checks you do not
wish to use. (iv) We will not be responsible for unauthorized
convenience checks paid on your account unless you report
them to us within 60 days after we mail you the first statement
on which they appear. (v) Report any lost or stolen
convenience checks immediately; otherwise you may be liable
if an unauthorized convenience check is paid on your account.

(e) Foreign Transactions: Purchases and Cash Advances made
in foreign countries and foreign currencies will be billed to
you in U.S. dollars. The exchange rate between the
transaction currency and the billing currency (U.S. dollars)
will be (a) a rate selected by Visa from the range of rates
available in the wholesale currency markets for the
applicable central processing date, which rate may vary
from the rate Visa itself receives, or (b) the governmentmandated rate in effect for the applicable central
processing date, in each instance, plus or minus any
adjustment determined by the Credit Union. If a Cash
Advance is conducted an additional fee of 2% of the
transaction amount ($5 minimum) will apply.
(f) Inquiries: Information about your Visa account is available 24
hours a day through VISA PIN POINT service or through the
Home Banking section of the Credit Union website. Either
service will provide account information such as your balance,
last payment received and/or your available credit. VISA PIN
POINT can be accessed with a touch-tone telephone by
calling (800) 892-9603. The Credit Union website address is
www.myEECU.org.
(g) Prohibited Transactions: You agree that you will not use or
allow your Visa account to be used for illegal transactions
such as illegal gambling. If we reasonably believe a
transaction is unlawful we have the right but not the duty to
decline it. Display of a Visa logo by a merchant does not
necessarily mean that the transaction is lawful.
Responsibility for determining the legality of your Visa
transactions rests with you, not with us. The actual or
alleged illegality of an authorized transaction will not be
defense to your obligation to pay.
(h) We will not be liable for the failure or refusal of any merchant
to accept your Visa Card or Visa convenience checks.
YOUR CREDIT LIMIT
If your Visa application is approved, the Credit Union will
establish a self-replenishing line of credit for you, and notify
you of the amount in writing. This means that you can borrow
the full amount of the credit limit, repay the principal in full or
part, and borrow again up to your maximum amount of credit,
as long as you remain a member in good standing of the Credit
Union and continue to be creditworthy. Your credit limit and
the unused portion still available to you will show on your
monthly statement. Your available amount is reduced by the
principal balance owing, accrued finance charges, fees and
late charges, if any. You agree not to let the account balance
exceed your approved credit limit.
If you wish to increase your credit limit, you must apply to the
Credit Union by written, phone, or online application, which
must be approved. Unless prohibited by law, we may increase
your credit limit at any time at our option and will notify you in
writing if we do this. Your credit limit will be reviewed
periodically and you may be requested to provide current
information. We will notify you in writing if we increase,
decrease, or terminate with good cause your credit limit and/or
account. Good cause includes, but is not limited to, your
failure to comply with this agreement or our adverse reevaluation of your creditworthiness.

BALANCE TRANSFERS
You may ask the Credit Union to transfer the balance of your
other credit cards to your EECU Visa account by sending us a
written request to do so or by using a Visa convenience check.
Your written request must state the name of the company, the
address, the account number and the amount of the payoff or
must include a payment stub. Balance Transfers are subject to
fees as outlined in the “OTHER CHARGES” section of this
agreement. If you elect to transfer balances to your EECU Visa
account, the following will apply:
(a) Transfer Amount: We will transfer as much as possible without
exceeding your credit line.
(b) Minimum Payments: Allow four (4) weeks for balances to be
transferred. You should continue paying the minimum
monthly amount due on your other accounts until the
balances have been transferred. We are not responsible for
any late payments, finance charges, disputed amounts or
errors on your other accounts.
(c) Billing Disputes: If you currently have any amounts in a billing
dispute, we recommend that they not be transferred because
you may lose your billing dispute rights.
(d) Finance Charge: Balance Transfers are treated as Cash
Advances and are assessed finance charges from the
transaction date. Finance charges continue until payment in
full is received for the balance.
(e) Closing Accounts: Transferring balances may not
automatically close your other accounts. To do so, you should
contact each company directly.
MONTHLY PAYMENTS
You agree to pay all amounts borrowed plus interest, fees and
other charges called for by this agreement in U.S. dollars using
lawful instruments drawn on U.S. financial institutions. You
agree to make at least your required minimum monthly
payment on or before the due date on your periodic statement.
MINIMUM PAYMENT SCHEDULE
BALANCE
MINIMUM PAYMENT
Under $20
Entire Balance
$20 to $1,000
$20
Over $1,000
2% of the principal balance
Your minimum payment must also include any past-due or overlimit amounts. If your balance exceeds $1,000, increased balances
will result in increased minimum payments.
The minimum payment amount may be applied to the lowest rate
balance. To the extent your payment exceeds the required minimum;
the excess will be applied first to higher rate balances and then to
lower rate balances. Subject to the requirement that payments in
excess of the minimum be applied to higher-rate balances first,
payments are applied in the following order: (a) previously billed
interest, fees and other charges; (b) previously billed Purchases and
Cash Advances; and (c) interest, fees and other charges on
Purchases and Cash Advances during the current billing cycle; and
(d) Purchases and Cash Advances during the current billing cycle.
If you take advantage of any promotional or introductory APR
offers, payments to your account may be applied to the
balances at the promotional or introductory APR offer first and

not to balances with higher APRs until the promotional or
introductory APR balances have been paid in full or have
expired.
You can pay all or part of your full balance due at any time
without prepayment penalty. If you make more than your
required minimum payment, you will still be required to make
your next month's required minimum payment by its due date.
Making more than the required minimum payment will
generally reduce the time it takes to pay off your balance and
the interest you pay.
We may offer “skip payment” promotions from time to time. If
you elect to skip your payment, interest will continue to accrue.
Our offering you a skip payment will not waive our right to
require you to make any other payment on its due date.
MAKING PAYMENTS
Mail the top half of your monthly Visa statement with your check
or other payment instrument to the address shown on your
periodic statement. You may also make your payment at any of
our offices or through the EECU Home Banking site by making a
transfer from your deposit account. It is your responsibility to
ensure that your payment arrives at our payment processing
center on time. We are not responsible for mail lost, damaged or
misdelivered by the postal service.
DO NOT INCLUDE PAYMENTS FOR OTHER
OBLIGATIONS WITH YOUR CREDIT CARD PAYMENT

EECU

FINANCE CHARGES
You will pay interest and other charges on your Visa account.
Interest and some of the other charges are called “Finance
Charges.” Finance Charges are the amounts of money that
you pay for the money that you borrow. In addition to
interest, some of the fees in the “OTHER CHARGES” section
of your Visa Account Agreement and Disclosure, shown in
bold, are considered Finance Charges. To make Visa
accounts available to as many members as possible, we
offer a variety of rates. The actual rate of interest applicable
to your account will depend on a number of factors we may
lawfully consider, including but not limited to your credit
history. When you are approved for a Visa account, we will
disclose the ANNUAL PERCENTAGE RATE and any variable
rate formula that will apply to your Educational Employees
Credit Union Visa account in writing before you can start
using your account.
Finance Charge Calculation Method: Average Daily Balance
(including new purchases): We start by calculating the average
daily balance for the billing period. For each day of the billing
period, we determine the daily balance by adding up all Cash
Advances, Purchases, and debit adjustments plus any amount
outstanding as of your most recent payment, then subtracting
any payments and credits for that day. We then add all of the
daily balances for the billing period and divide them by the
number of days in the billing period. We then multiply the
average daily balance by the monthly periodic rate to
determine the finance charge for that billing period. The
minimum finance charge in a billing cycle is $.50.

Grace Period: You will have a grace period of 25 days on
average for repayment of Purchases. Cash Advances and
Balance Transfers are subject to finance charges from the day
they post to your account until they are paid in full. If you do not
pay your entire statement balance in full within the 25-day grace
period, finance charges will accrue.
We can change your interest rate and other finance charges
by giving you advance notice as is required by applicable
law. Unless you have a variable rate account, changes will
generally apply to transactions initiated more than 14 days
after provision of the notice.
OTHER CHARGES
In addition to Finance Charges, the following fees may be
assessed to your Visa Account. They will be added to the
principal balance and will accrue interest until paid:
•
•
•
•
•
•
•
•
•
•
•

•
•

Late Payment:
Returned Payment:
Over-the-Credit Limit:
Balance Transfer:

Up to $15.00
$24.00
None
$5.00 or 2% of the transfer
amount, whichever is greater
Cash Advance:*
$5.00 or 2% of the cash advance
amount, whichever is greater
Account Research:
$20.00 per hour, one hour
minimum
Statement Copies:
$3.00 per statement
Replacement Cards:
$5.00 per card, plus additional
charge for rush orders
Stop Payment on Recurring
Visa Transaction:
$15.00
Stop Payment on
Visa Convenience Check: $15.00
Visa Convenience Check: The standard cash advance fee
applies to each Visa
Convenience Check paid
Visa Sales Slip Copy:
$12.00 each
Visa Card Rush Order:
2 days - $25.00; 4 days - $15.00

For new accounts, fees and charges are also stated in the Truth
in Lending Credit Card Opening Disclosure incorporated into
this Agreement by reference and provided to you separately
when your account was opened.
*The following are considered Cash Advances: (a) obtaining
cash at an ATM using your Visa card; (b) a Cash Advance at a
financial institution or other entity that offer Visa Cash
Advances; (c) funds from the use of a Visa convenience check;
(d) a Balance Transfer.

CREDITS
If a merchant who honors your card gives you credit for returns
or adjustments, he will do so by sending us a credit slip which we
will post to your account. You will be liable for any finance
charges that accrue between the end of your grace period and
the time the credit posts to your account. If your credits and
payments exceed what you owe, the amount will be applied
against future Purchases and Cash Advances. If the credit is $1

not smaller than the minimum monthly payment required as
disclosed in the paragraph entitled, "Making Payments." On a
joint account, each party is equally responsible for all charges
under this agreement, even though another person has been
directed to pay the debt by agreement of court order such as a
divorce decree. You agree to notify us immediately of any change
in your name, address, or any change in your financial condition
which may affect your ability to repay.
PERSONS USING YOUR ACCOUNT
You are obligated to repay any charges resulting from the use
of the card or a Visa convenience check by another person
with your permission whether or not the person stays within
the limits set by you. If you notify us that a previously
authorized user is no longer authorized to use the account, we
will follow our usual procedures to preclude their further use of
the account. If you cannot get the card back from the user, you
must let us know and we will treat the card as stolen.
Otherwise you must return the card to us. You will be liable for
all use of the card up to the time you notify us that the
authorization is terminated.
Any persons who use the card or convenience checks are also
obligated to repay the Credit Union for all charges incurred
because of their use of the card or loan drafts.
OUR RESPONSIBILITY
If you have available credit and are not otherwise in default, we
will honor Purchases and Balance Transfers up to your credit limit
and Cash Advances up to your Cash Advance limit. We will
provide you with a timely monthly statement that contains all
information and disclosure required by law.
LOST/STOLEN OR UNAUTHORIZED USE OF CARD
Unless you have notified us that the card has been lost or
stolen, all transactions, whether made by you or another
person, will be assumed to have been made with your
consent. You agree to report the loss, theft, or unauthorized
use of your card promptly. Report your lost/stolen card to (559)
437-7700 or (800) 538-EECU. You may also write to us at P.O.
Box 5242, Fresno CA 93755-5242. Calling us is the best way
to keep losses down. Per Visa operating rules, you will
generally have no liability for unauthorized use of your card.
However, it benefits all Credit Union members if losses due to
unauthorized use claims are kept to a minimum.
The zero liability rule does not apply to certain point-of-sale and
ATM transactions as set forth in Visa operating rules. Your
maximum liability for unauthorized use of a Visa credit card for
these point-of-sale or ATM transactions is $50. Your liability may
increase if you report the loss or theft of your card more than two
business days (48 hours) after the discovery of the loss or theft.
You will have no liability for unauthorized transactions that occur
after you report the loss or theft of your card to us.
You may create a special "Verified by Visa" password to verify
your identity and provide added protection to your online
Purchases. You can create your own password at
www.visa.com/verified.

HOW TO USE YOUR VISA ACCOUNT
Your Visa account can be accessed in the ways detailed below.
Your monthly Visa statement will identify the merchant, electronic
terminal, or financial institution at which transactions were made;
but sales, Cash Advances, and credit slips cannot be returned with
the statement. You will retain your copy of such slips furnished at
the time of the transaction in order to verify the monthly statement.
(a) Cash Advances: You may obtain Cash Advances on your Visa
account at any branch of the Credit Union up to your cash
advance limit, which may be lower than your credit limit. You
may obtain Cash Advances at other financial institutions that
honor Visa cards, subject to those institutions' limitations.
Cash Advances are subject to fees as outlined in the “OTHER
CHARGES” section of this agreement.
(b) Cash Advances at an Automated Teller Machine (ATM): ATMs
located across the nation will disburse Cash Advances on
your card; a Visa emblem will be shown on the face of each
machine. To receive a Cash Advance from a participating Visa
ATM, you must insert your card and input your Personal
Identification Number (PIN) which you will receive within 5 to
10 days after you receive your card. The maximum Cash
Advance may vary between ATMs. The use of your credit card
for ATM access is subject to additional ATM disclosure terms.
Cash Advances are subject to fees as outlined in the “OTHER
CHARGES” section of this agreement.
IMPORTANT: FOR YOUR PROTECTION, DO NOT WRITE
YOUR PIN NUMBER ON YOUR CARD OR KEEP IT NEAR
YOUR CARD.
(c) Purchases: You may use your Visa card for Purchases anywhere
the card is honored by presenting the card to the merchant and
signing the sales slip or voucher. You can also make Purchases
by mail, telephone, or via the internet by providing the merchant
with your card number and expiration date.
(d) Visa Convenience Checks: The Credit Union from time to time
may send you Visa convenience checks. You can use them to
make Purchases or to obtain loan advances. You may not use
the convenience checks to pay any outstanding balance you
owe under this agreement. Visa convenience checks are
treated as a Cash Advance for purposes of calculating finance
charges, whether you use them to make a Purchase or to
obtain a Cash Advance. Use of Visa convenience checks are
subject to fees as outlined in the “OTHER CHARGES” section
of this agreement.
Visa convenience checks are subject to the following
additional rules: (i) Merchant dispute rights to which credit
cards are subject do not apply to use of Visa convenience
checks. (ii) To stop payment on a Visa convenience checks,
you must provide your account number, the draft number and
the exact amount of the draft; otherwise our computer system
will not be able to find the draft and stop payment on it and you
will need to resolve any disputes directly with the payee of the
draft. (iii) Destroy any Visa convenience checks you do not
wish to use. (iv) We will not be responsible for unauthorized
convenience checks paid on your account unless you report
them to us within 60 days after we mail you the first statement
on which they appear. (v) Report any lost or stolen
convenience checks immediately; otherwise you may be liable
if an unauthorized convenience check is paid on your account.

(e) Foreign Transactions: Purchases and Cash Advances made
in foreign countries and foreign currencies will be billed to
you in U.S. dollars. The exchange rate between the
transaction currency and the billing currency (U.S. dollars)
will be (a) a rate selected by Visa from the range of rates
available in the wholesale currency markets for the
applicable central processing date, which rate may vary
from the rate Visa itself receives, or (b) the governmentmandated rate in effect for the applicable central
processing date, in each instance, plus or minus any
adjustment determined by the Credit Union. If a Cash
Advance is conducted an additional fee of 2% of the
transaction amount ($5 minimum) will apply.
(f) Inquiries: Information about your Visa account is available 24
hours a day through VISA PIN POINT service or through the
Home Banking section of the Credit Union website. Either
service will provide account information such as your balance,
last payment received and/or your available credit. VISA PIN
POINT can be accessed with a touch-tone telephone by
calling (800) 892-9603. The Credit Union website address is
www.myEECU.org.
(g) Prohibited Transactions: You agree that you will not use or
allow your Visa account to be used for illegal transactions
such as illegal gambling. If we reasonably believe a
transaction is unlawful we have the right but not the duty to
decline it. Display of a Visa logo by a merchant does not
necessarily mean that the transaction is lawful.
Responsibility for determining the legality of your Visa
transactions rests with you, not with us. The actual or
alleged illegality of an authorized transaction will not be
defense to your obligation to pay.
(h) We will not be liable for the failure or refusal of any merchant
to accept your Visa Card or Visa convenience checks.
YOUR CREDIT LIMIT
If your Visa application is approved, the Credit Union will
establish a self-replenishing line of credit for you, and notify
you of the amount in writing. This means that you can borrow
the full amount of the credit limit, repay the principal in full or
part, and borrow again up to your maximum amount of credit,
as long as you remain a member in good standing of the Credit
Union and continue to be creditworthy. Your credit limit and
the unused portion still available to you will show on your
monthly statement. Your available amount is reduced by the
principal balance owing, accrued finance charges, fees and
late charges, if any. You agree not to let the account balance
exceed your approved credit limit.
If you wish to increase your credit limit, you must apply to the
Credit Union by written, phone, or online application, which
must be approved. Unless prohibited by law, we may increase
your credit limit at any time at our option and will notify you in
writing if we do this. Your credit limit will be reviewed
periodically and you may be requested to provide current
information. We will notify you in writing if we increase,
decrease, or terminate with good cause your credit limit and/or
account. Good cause includes, but is not limited to, your
failure to comply with this agreement or our adverse reevaluation of your creditworthiness.

BALANCE TRANSFERS
You may ask the Credit Union to transfer the balance of your
other credit cards to your EECU Visa account by sending us a
written request to do so or by using a Visa convenience check.
Your written request must state the name of the company, the
address, the account number and the amount of the payoff or
must include a payment stub. Balance Transfers are subject to
fees as outlined in the “OTHER CHARGES” section of this
agreement. If you elect to transfer balances to your EECU Visa
account, the following will apply:
(a) Transfer Amount: We will transfer as much as possible without
exceeding your credit line.
(b) Minimum Payments: Allow four (4) weeks for balances to be
transferred. You should continue paying the minimum
monthly amount due on your other accounts until the
balances have been transferred. We are not responsible for
any late payments, finance charges, disputed amounts or
errors on your other accounts.
(c) Billing Disputes: If you currently have any amounts in a billing
dispute, we recommend that they not be transferred because
you may lose your billing dispute rights.
(d) Finance Charge: Balance Transfers are treated as Cash
Advances and are assessed finance charges from the
transaction date. Finance charges continue until payment in
full is received for the balance.
(e) Closing Accounts: Transferring balances may not
automatically close your other accounts. To do so, you should
contact each company directly.
MONTHLY PAYMENTS
You agree to pay all amounts borrowed plus interest, fees and
other charges called for by this agreement in U.S. dollars using
lawful instruments drawn on U.S. financial institutions. You
agree to make at least your required minimum monthly
payment on or before the due date on your periodic statement.
MINIMUM PAYMENT SCHEDULE
BALANCE
MINIMUM PAYMENT
Under $20
Entire Balance
$20 to $1,000
$20
Over $1,000
2% of the principal balance
Your minimum payment must also include any past-due or overlimit amounts. If your balance exceeds $1,000, increased balances
will result in increased minimum payments.
The minimum payment amount may be applied to the lowest rate
balance. To the extent your payment exceeds the required minimum;
the excess will be applied first to higher rate balances and then to
lower rate balances. Subject to the requirement that payments in
excess of the minimum be applied to higher-rate balances first,
payments are applied in the following order: (a) previously billed
interest, fees and other charges; (b) previously billed Purchases and
Cash Advances; and (c) interest, fees and other charges on
Purchases and Cash Advances during the current billing cycle; and
(d) Purchases and Cash Advances during the current billing cycle.
If you take advantage of any promotional or introductory APR
offers, payments to your account may be applied to the
balances at the promotional or introductory APR offer first and

not to balances with higher APRs until the promotional or
introductory APR balances have been paid in full or have
expired.
You can pay all or part of your full balance due at any time
without prepayment penalty. If you make more than your
required minimum payment, you will still be required to make
your next month's required minimum payment by its due date.
Making more than the required minimum payment will
generally reduce the time it takes to pay off your balance and
the interest you pay.
We may offer “skip payment” promotions from time to time. If
you elect to skip your payment, interest will continue to accrue.
Our offering you a skip payment will not waive our right to
require you to make any other payment on its due date.
MAKING PAYMENTS
Mail the top half of your monthly Visa statement with your check
or other payment instrument to the address shown on your
periodic statement. You may also make your payment at any of
our offices or through the EECU Home Banking site by making a
transfer from your deposit account. It is your responsibility to
ensure that your payment arrives at our payment processing
center on time. We are not responsible for mail lost, damaged or
misdelivered by the postal service.
DO NOT INCLUDE PAYMENTS FOR OTHER
OBLIGATIONS WITH YOUR CREDIT CARD PAYMENT

EECU

FINANCE CHARGES
You will pay interest and other charges on your Visa account.
Interest and some of the other charges are called “Finance
Charges.” Finance Charges are the amounts of money that
you pay for the money that you borrow. In addition to
interest, some of the fees in the “OTHER CHARGES” section
of your Visa Account Agreement and Disclosure, shown in
bold, are considered Finance Charges. To make Visa
accounts available to as many members as possible, we
offer a variety of rates. The actual rate of interest applicable
to your account will depend on a number of factors we may
lawfully consider, including but not limited to your credit
history. When you are approved for a Visa account, we will
disclose the ANNUAL PERCENTAGE RATE and any variable
rate formula that will apply to your Educational Employees
Credit Union Visa account in writing before you can start
using your account.
Finance Charge Calculation Method: Average Daily Balance
(including new purchases): We start by calculating the average
daily balance for the billing period. For each day of the billing
period, we determine the daily balance by adding up all Cash
Advances, Purchases, and debit adjustments plus any amount
outstanding as of your most recent payment, then subtracting
any payments and credits for that day. We then add all of the
daily balances for the billing period and divide them by the
number of days in the billing period. We then multiply the
average daily balance by the monthly periodic rate to
determine the finance charge for that billing period. The
minimum finance charge in a billing cycle is $.50.

Grace Period: You will have a grace period of 25 days on
average for repayment of Purchases. Cash Advances and
Balance Transfers are subject to finance charges from the day
they post to your account until they are paid in full. If you do not
pay your entire statement balance in full within the 25-day grace
period, finance charges will accrue.
We can change your interest rate and other finance charges
by giving you advance notice as is required by applicable
law. Unless you have a variable rate account, changes will
generally apply to transactions initiated more than 14 days
after provision of the notice.
OTHER CHARGES
In addition to Finance Charges, the following fees may be
assessed to your Visa Account. They will be added to the
principal balance and will accrue interest until paid:
•
•
•
•
•
•
•
•
•
•
•

•
•

Late Payment:
Returned Payment:
Over-the-Credit Limit:
Balance Transfer:

Up to $15.00
$24.00
None
$5.00 or 2% of the transfer
amount, whichever is greater
Cash Advance:*
$5.00 or 2% of the cash advance
amount, whichever is greater
Account Research:
$20.00 per hour, one hour
minimum
Statement Copies:
$3.00 per statement
Replacement Cards:
$5.00 per card, plus additional
charge for rush orders
Stop Payment on Recurring
Visa Transaction:
$15.00
Stop Payment on
Visa Convenience Check: $15.00
Visa Convenience Check: The standard cash advance fee
applies to each Visa
Convenience Check paid
Visa Sales Slip Copy:
$12.00 each
Visa Card Rush Order:
2 days - $25.00; 4 days - $15.00

For new accounts, fees and charges are also stated in the Truth
in Lending Credit Card Opening Disclosure incorporated into
this Agreement by reference and provided to you separately
when your account was opened.
*The following are considered Cash Advances: (a) obtaining
cash at an ATM using your Visa card; (b) a Cash Advance at a
financial institution or other entity that offer Visa Cash
Advances; (c) funds from the use of a Visa convenience check;
(d) a Balance Transfer.

CREDITS
If a merchant who honors your card gives you credit for returns
or adjustments, he will do so by sending us a credit slip which we
will post to your account. You will be liable for any finance
charges that accrue between the end of your grace period and
the time the credit posts to your account. If your credits and
payments exceed what you owe, the amount will be applied
against future Purchases and Cash Advances. If the credit is $1

not smaller than the minimum monthly payment required as
disclosed in the paragraph entitled, "Making Payments." On a
joint account, each party is equally responsible for all charges
under this agreement, even though another person has been
directed to pay the debt by agreement of court order such as a
divorce decree. You agree to notify us immediately of any change
in your name, address, or any change in your financial condition
which may affect your ability to repay.
PERSONS USING YOUR ACCOUNT
You are obligated to repay any charges resulting from the use
of the card or a Visa convenience check by another person
with your permission whether or not the person stays within
the limits set by you. If you notify us that a previously
authorized user is no longer authorized to use the account, we
will follow our usual procedures to preclude their further use of
the account. If you cannot get the card back from the user, you
must let us know and we will treat the card as stolen.
Otherwise you must return the card to us. You will be liable for
all use of the card up to the time you notify us that the
authorization is terminated.
Any persons who use the card or convenience checks are also
obligated to repay the Credit Union for all charges incurred
because of their use of the card or loan drafts.
OUR RESPONSIBILITY
If you have available credit and are not otherwise in default, we
will honor Purchases and Balance Transfers up to your credit limit
and Cash Advances up to your Cash Advance limit. We will
provide you with a timely monthly statement that contains all
information and disclosure required by law.
LOST/STOLEN OR UNAUTHORIZED USE OF CARD
Unless you have notified us that the card has been lost or
stolen, all transactions, whether made by you or another
person, will be assumed to have been made with your
consent. You agree to report the loss, theft, or unauthorized
use of your card promptly. Report your lost/stolen card to (559)
437-7700 or (800) 538-EECU. You may also write to us at P.O.
Box 5242, Fresno CA 93755-5242. Calling us is the best way
to keep losses down. Per Visa operating rules, you will
generally have no liability for unauthorized use of your card.
However, it benefits all Credit Union members if losses due to
unauthorized use claims are kept to a minimum.
The zero liability rule does not apply to certain point-of-sale and
ATM transactions as set forth in Visa operating rules. Your
maximum liability for unauthorized use of a Visa credit card for
these point-of-sale or ATM transactions is $50. Your liability may
increase if you report the loss or theft of your card more than two
business days (48 hours) after the discovery of the loss or theft.
You will have no liability for unauthorized transactions that occur
after you report the loss or theft of your card to us.
You may create a special "Verified by Visa" password to verify
your identity and provide added protection to your online
Purchases. You can create your own password at
www.visa.com/verified.

HOW TO USE YOUR VISA ACCOUNT
Your Visa account can be accessed in the ways detailed below.
Your monthly Visa statement will identify the merchant, electronic
terminal, or financial institution at which transactions were made;
but sales, Cash Advances, and credit slips cannot be returned with
the statement. You will retain your copy of such slips furnished at
the time of the transaction in order to verify the monthly statement.
(a) Cash Advances: You may obtain Cash Advances on your Visa
account at any branch of the Credit Union up to your cash
advance limit, which may be lower than your credit limit. You
may obtain Cash Advances at other financial institutions that
honor Visa cards, subject to those institutions' limitations.
Cash Advances are subject to fees as outlined in the “OTHER
CHARGES” section of this agreement.
(b) Cash Advances at an Automated Teller Machine (ATM): ATMs
located across the nation will disburse Cash Advances on
your card; a Visa emblem will be shown on the face of each
machine. To receive a Cash Advance from a participating Visa
ATM, you must insert your card and input your Personal
Identification Number (PIN) which you will receive within 5 to
10 days after you receive your card. The maximum Cash
Advance may vary between ATMs. The use of your credit card
for ATM access is subject to additional ATM disclosure terms.
Cash Advances are subject to fees as outlined in the “OTHER
CHARGES” section of this agreement.
IMPORTANT: FOR YOUR PROTECTION, DO NOT WRITE
YOUR PIN NUMBER ON YOUR CARD OR KEEP IT NEAR
YOUR CARD.
(c) Purchases: You may use your Visa card for Purchases anywhere
the card is honored by presenting the card to the merchant and
signing the sales slip or voucher. You can also make Purchases
by mail, telephone, or via the internet by providing the merchant
with your card number and expiration date.
(d) Visa Convenience Checks: The Credit Union from time to time
may send you Visa convenience checks. You can use them to
make Purchases or to obtain loan advances. You may not use
the convenience checks to pay any outstanding balance you
owe under this agreement. Visa convenience checks are
treated as a Cash Advance for purposes of calculating finance
charges, whether you use them to make a Purchase or to
obtain a Cash Advance. Use of Visa convenience checks are
subject to fees as outlined in the “OTHER CHARGES” section
of this agreement.
Visa convenience checks are subject to the following
additional rules: (i) Merchant dispute rights to which credit
cards are subject do not apply to use of Visa convenience
checks. (ii) To stop payment on a Visa convenience checks,
you must provide your account number, the draft number and
the exact amount of the draft; otherwise our computer system
will not be able to find the draft and stop payment on it and you
will need to resolve any disputes directly with the payee of the
draft. (iii) Destroy any Visa convenience checks you do not
wish to use. (iv) We will not be responsible for unauthorized
convenience checks paid on your account unless you report
them to us within 60 days after we mail you the first statement
on which they appear. (v) Report any lost or stolen
convenience checks immediately; otherwise you may be liable
if an unauthorized convenience check is paid on your account.

(e) Foreign Transactions: Purchases and Cash Advances made
in foreign countries and foreign currencies will be billed to
you in U.S. dollars. The exchange rate between the
transaction currency and the billing currency (U.S. dollars)
will be (a) a rate selected by Visa from the range of rates
available in the wholesale currency markets for the
applicable central processing date, which rate may vary
from the rate Visa itself receives, or (b) the governmentmandated rate in effect for the applicable central
processing date, in each instance, plus or minus any
adjustment determined by the Credit Union. If a Cash
Advance is conducted an additional fee of 2% of the
transaction amount ($5 minimum) will apply.
(f) Inquiries: Information about your Visa account is available 24
hours a day through VISA PIN POINT service or through the
Home Banking section of the Credit Union website. Either
service will provide account information such as your balance,
last payment received and/or your available credit. VISA PIN
POINT can be accessed with a touch-tone telephone by
calling (800) 892-9603. The Credit Union website address is
www.myEECU.org.
(g) Prohibited Transactions: You agree that you will not use or
allow your Visa account to be used for illegal transactions
such as illegal gambling. If we reasonably believe a
transaction is unlawful we have the right but not the duty to
decline it. Display of a Visa logo by a merchant does not
necessarily mean that the transaction is lawful.
Responsibility for determining the legality of your Visa
transactions rests with you, not with us. The actual or
alleged illegality of an authorized transaction will not be
defense to your obligation to pay.
(h) We will not be liable for the failure or refusal of any merchant
to accept your Visa Card or Visa convenience checks.
YOUR CREDIT LIMIT
If your Visa application is approved, the Credit Union will
establish a self-replenishing line of credit for you, and notify
you of the amount in writing. This means that you can borrow
the full amount of the credit limit, repay the principal in full or
part, and borrow again up to your maximum amount of credit,
as long as you remain a member in good standing of the Credit
Union and continue to be creditworthy. Your credit limit and
the unused portion still available to you will show on your
monthly statement. Your available amount is reduced by the
principal balance owing, accrued finance charges, fees and
late charges, if any. You agree not to let the account balance
exceed your approved credit limit.
If you wish to increase your credit limit, you must apply to the
Credit Union by written, phone, or online application, which
must be approved. Unless prohibited by law, we may increase
your credit limit at any time at our option and will notify you in
writing if we do this. Your credit limit will be reviewed
periodically and you may be requested to provide current
information. We will notify you in writing if we increase,
decrease, or terminate with good cause your credit limit and/or
account. Good cause includes, but is not limited to, your
failure to comply with this agreement or our adverse reevaluation of your creditworthiness.

BALANCE TRANSFERS
You may ask the Credit Union to transfer the balance of your
other credit cards to your EECU Visa account by sending us a
written request to do so or by using a Visa convenience check.
Your written request must state the name of the company, the
address, the account number and the amount of the payoff or
must include a payment stub. Balance Transfers are subject to
fees as outlined in the “OTHER CHARGES” section of this
agreement. If you elect to transfer balances to your EECU Visa
account, the following will apply:
(a) Transfer Amount: We will transfer as much as possible without
exceeding your credit line.
(b) Minimum Payments: Allow four (4) weeks for balances to be
transferred. You should continue paying the minimum
monthly amount due on your other accounts until the
balances have been transferred. We are not responsible for
any late payments, finance charges, disputed amounts or
errors on your other accounts.
(c) Billing Disputes: If you currently have any amounts in a billing
dispute, we recommend that they not be transferred because
you may lose your billing dispute rights.
(d) Finance Charge: Balance Transfers are treated as Cash
Advances and are assessed finance charges from the
transaction date. Finance charges continue until payment in
full is received for the balance.
(e) Closing Accounts: Transferring balances may not
automatically close your other accounts. To do so, you should
contact each company directly.
MONTHLY PAYMENTS
You agree to pay all amounts borrowed plus interest, fees and
other charges called for by this agreement in U.S. dollars using
lawful instruments drawn on U.S. financial institutions. You
agree to make at least your required minimum monthly
payment on or before the due date on your periodic statement.
MINIMUM PAYMENT SCHEDULE
BALANCE
MINIMUM PAYMENT
Under $20
Entire Balance
$20 to $1,000
$20
Over $1,000
2% of the principal balance
Your minimum payment must also include any past-due or overlimit amounts. If your balance exceeds $1,000, increased balances
will result in increased minimum payments.
The minimum payment amount may be applied to the lowest rate
balance. To the extent your payment exceeds the required minimum;
the excess will be applied first to higher rate balances and then to
lower rate balances. Subject to the requirement that payments in
excess of the minimum be applied to higher-rate balances first,
payments are applied in the following order: (a) previously billed
interest, fees and other charges; (b) previously billed Purchases and
Cash Advances; and (c) interest, fees and other charges on
Purchases and Cash Advances during the current billing cycle; and
(d) Purchases and Cash Advances during the current billing cycle.
If you take advantage of any promotional or introductory APR
offers, payments to your account may be applied to the
balances at the promotional or introductory APR offer first and

not to balances with higher APRs until the promotional or
introductory APR balances have been paid in full or have
expired.
You can pay all or part of your full balance due at any time
without prepayment penalty. If you make more than your
required minimum payment, you will still be required to make
your next month's required minimum payment by its due date.
Making more than the required minimum payment will
generally reduce the time it takes to pay off your balance and
the interest you pay.
We may offer “skip payment” promotions from time to time. If
you elect to skip your payment, interest will continue to accrue.
Our offering you a skip payment will not waive our right to
require you to make any other payment on its due date.
MAKING PAYMENTS
Mail the top half of your monthly Visa statement with your check
or other payment instrument to the address shown on your
periodic statement. You may also make your payment at any of
our offices or through the EECU Home Banking site by making a
transfer from your deposit account. It is your responsibility to
ensure that your payment arrives at our payment processing
center on time. We are not responsible for mail lost, damaged or
misdelivered by the postal service.
DO NOT INCLUDE PAYMENTS FOR OTHER
OBLIGATIONS WITH YOUR CREDIT CARD PAYMENT

EECU

FINANCE CHARGES
You will pay interest and other charges on your Visa account.
Interest and some of the other charges are called “Finance
Charges.” Finance Charges are the amounts of money that
you pay for the money that you borrow. In addition to
interest, some of the fees in the “OTHER CHARGES” section
of your Visa Account Agreement and Disclosure, shown in
bold, are considered Finance Charges. To make Visa
accounts available to as many members as possible, we
offer a variety of rates. The actual rate of interest applicable
to your account will depend on a number of factors we may
lawfully consider, including but not limited to your credit
history. When you are approved for a Visa account, we will
disclose the ANNUAL PERCENTAGE RATE and any variable
rate formula that will apply to your Educational Employees
Credit Union Visa account in writing before you can start
using your account.
Finance Charge Calculation Method: Average Daily Balance
(including new purchases): We start by calculating the average
daily balance for the billing period. For each day of the billing
period, we determine the daily balance by adding up all Cash
Advances, Purchases, and debit adjustments plus any amount
outstanding as of your most recent payment, then subtracting
any payments and credits for that day. We then add all of the
daily balances for the billing period and divide them by the
number of days in the billing period. We then multiply the
average daily balance by the monthly periodic rate to
determine the finance charge for that billing period. The
minimum finance charge in a billing cycle is $.50.

Grace Period: You will have a grace period of 25 days on
average for repayment of Purchases. Cash Advances and
Balance Transfers are subject to finance charges from the day
they post to your account until they are paid in full. If you do not
pay your entire statement balance in full within the 25-day grace
period, finance charges will accrue.
We can change your interest rate and other finance charges
by giving you advance notice as is required by applicable
law. Unless you have a variable rate account, changes will
generally apply to transactions initiated more than 14 days
after provision of the notice.
OTHER CHARGES
In addition to Finance Charges, the following fees may be
assessed to your Visa Account. They will be added to the
principal balance and will accrue interest until paid:
•
•
•
•
•
•
•
•
•
•
•

•
•

Late Payment:
Returned Payment:
Over-the-Credit Limit:
Balance Transfer:

Up to $15.00
$24.00
None
$5.00 or 2% of the transfer
amount, whichever is greater
Cash Advance:*
$5.00 or 2% of the cash advance
amount, whichever is greater
Account Research:
$20.00 per hour, one hour
minimum
Statement Copies:
$3.00 per statement
Replacement Cards:
$5.00 per card, plus additional
charge for rush orders
Stop Payment on Recurring
Visa Transaction:
$15.00
Stop Payment on
Visa Convenience Check: $15.00
Visa Convenience Check: The standard cash advance fee
applies to each Visa
Convenience Check paid
Visa Sales Slip Copy:
$12.00 each
Visa Card Rush Order:
2 days - $25.00; 4 days - $15.00

For new accounts, fees and charges are also stated in the Truth
in Lending Credit Card Opening Disclosure incorporated into
this Agreement by reference and provided to you separately
when your account was opened.
*The following are considered Cash Advances: (a) obtaining
cash at an ATM using your Visa card; (b) a Cash Advance at a
financial institution or other entity that offer Visa Cash
Advances; (c) funds from the use of a Visa convenience check;
(d) a Balance Transfer.

CREDITS
If a merchant who honors your card gives you credit for returns
or adjustments, he will do so by sending us a credit slip which we
will post to your account. You will be liable for any finance
charges that accrue between the end of your grace period and
the time the credit posts to your account. If your credits and
payments exceed what you owe, the amount will be applied
against future Purchases and Cash Advances. If the credit is $1

not smaller than the minimum monthly payment required as
disclosed in the paragraph entitled, "Making Payments." On a
joint account, each party is equally responsible for all charges
under this agreement, even though another person has been
directed to pay the debt by agreement of court order such as a
divorce decree. You agree to notify us immediately of any change
in your name, address, or any change in your financial condition
which may affect your ability to repay.
PERSONS USING YOUR ACCOUNT
You are obligated to repay any charges resulting from the use
of the card or a Visa convenience check by another person
with your permission whether or not the person stays within
the limits set by you. If you notify us that a previously
authorized user is no longer authorized to use the account, we
will follow our usual procedures to preclude their further use of
the account. If you cannot get the card back from the user, you
must let us know and we will treat the card as stolen.
Otherwise you must return the card to us. You will be liable for
all use of the card up to the time you notify us that the
authorization is terminated.
Any persons who use the card or convenience checks are also
obligated to repay the Credit Union for all charges incurred
because of their use of the card or loan drafts.
OUR RESPONSIBILITY
If you have available credit and are not otherwise in default, we
will honor Purchases and Balance Transfers up to your credit limit
and Cash Advances up to your Cash Advance limit. We will
provide you with a timely monthly statement that contains all
information and disclosure required by law.
LOST/STOLEN OR UNAUTHORIZED USE OF CARD
Unless you have notified us that the card has been lost or
stolen, all transactions, whether made by you or another
person, will be assumed to have been made with your
consent. You agree to report the loss, theft, or unauthorized
use of your card promptly. Report your lost/stolen card to (559)
437-7700 or (800) 538-EECU. You may also write to us at P.O.
Box 5242, Fresno CA 93755-5242. Calling us is the best way
to keep losses down. Per Visa operating rules, you will
generally have no liability for unauthorized use of your card.
However, it benefits all Credit Union members if losses due to
unauthorized use claims are kept to a minimum.
The zero liability rule does not apply to certain point-of-sale and
ATM transactions as set forth in Visa operating rules. Your
maximum liability for unauthorized use of a Visa credit card for
these point-of-sale or ATM transactions is $50. Your liability may
increase if you report the loss or theft of your card more than two
business days (48 hours) after the discovery of the loss or theft.
You will have no liability for unauthorized transactions that occur
after you report the loss or theft of your card to us.
You may create a special "Verified by Visa" password to verify
your identity and provide added protection to your online
Purchases. You can create your own password at
www.visa.com/verified.

HOW TO USE YOUR VISA ACCOUNT
Your Visa account can be accessed in the ways detailed below.
Your monthly Visa statement will identify the merchant, electronic
terminal, or financial institution at which transactions were made;
but sales, Cash Advances, and credit slips cannot be returned with
the statement. You will retain your copy of such slips furnished at
the time of the transaction in order to verify the monthly statement.
(a) Cash Advances: You may obtain Cash Advances on your Visa
account at any branch of the Credit Union up to your cash
advance limit, which may be lower than your credit limit. You
may obtain Cash Advances at other financial institutions that
honor Visa cards, subject to those institutions' limitations.
Cash Advances are subject to fees as outlined in the “OTHER
CHARGES” section of this agreement.
(b) Cash Advances at an Automated Teller Machine (ATM): ATMs
located across the nation will disburse Cash Advances on
your card; a Visa emblem will be shown on the face of each
machine. To receive a Cash Advance from a participating Visa
ATM, you must insert your card and input your Personal
Identification Number (PIN) which you will receive within 5 to
10 days after you receive your card. The maximum Cash
Advance may vary between ATMs. The use of your credit card
for ATM access is subject to additional ATM disclosure terms.
Cash Advances are subject to fees as outlined in the “OTHER
CHARGES” section of this agreement.
IMPORTANT: FOR YOUR PROTECTION, DO NOT WRITE
YOUR PIN NUMBER ON YOUR CARD OR KEEP IT NEAR
YOUR CARD.
(c) Purchases: You may use your Visa card for Purchases anywhere
the card is honored by presenting the card to the merchant and
signing the sales slip or voucher. You can also make Purchases
by mail, telephone, or via the internet by providing the merchant
with your card number and expiration date.
(d) Visa Convenience Checks: The Credit Union from time to time
may send you Visa convenience checks. You can use them to
make Purchases or to obtain loan advances. You may not use
the convenience checks to pay any outstanding balance you
owe under this agreement. Visa convenience checks are
treated as a Cash Advance for purposes of calculating finance
charges, whether you use them to make a Purchase or to
obtain a Cash Advance. Use of Visa convenience checks are
subject to fees as outlined in the “OTHER CHARGES” section
of this agreement.
Visa convenience checks are subject to the following
additional rules: (i) Merchant dispute rights to which credit
cards are subject do not apply to use of Visa convenience
checks. (ii) To stop payment on a Visa convenience checks,
you must provide your account number, the draft number and
the exact amount of the draft; otherwise our computer system
will not be able to find the draft and stop payment on it and you
will need to resolve any disputes directly with the payee of the
draft. (iii) Destroy any Visa convenience checks you do not
wish to use. (iv) We will not be responsible for unauthorized
convenience checks paid on your account unless you report
them to us within 60 days after we mail you the first statement
on which they appear. (v) Report any lost or stolen
convenience checks immediately; otherwise you may be liable
if an unauthorized convenience check is paid on your account.

(e) Foreign Transactions: Purchases and Cash Advances made
in foreign countries and foreign currencies will be billed to
you in U.S. dollars. The exchange rate between the
transaction currency and the billing currency (U.S. dollars)
will be (a) a rate selected by Visa from the range of rates
available in the wholesale currency markets for the
applicable central processing date, which rate may vary
from the rate Visa itself receives, or (b) the governmentmandated rate in effect for the applicable central
processing date, in each instance, plus or minus any
adjustment determined by the Credit Union. If a Cash
Advance is conducted an additional fee of 2% of the
transaction amount ($5 minimum) will apply.
(f) Inquiries: Information about your Visa account is available 24
hours a day through VISA PIN POINT service or through the
Home Banking section of the Credit Union website. Either
service will provide account information such as your balance,
last payment received and/or your available credit. VISA PIN
POINT can be accessed with a touch-tone telephone by
calling (800) 892-9603. The Credit Union website address is
www.myEECU.org.
(g) Prohibited Transactions: You agree that you will not use or
allow your Visa account to be used for illegal transactions
such as illegal gambling. If we reasonably believe a
transaction is unlawful we have the right but not the duty to
decline it. Display of a Visa logo by a merchant does not
necessarily mean that the transaction is lawful.
Responsibility for determining the legality of your Visa
transactions rests with you, not with us. The actual or
alleged illegality of an authorized transaction will not be
defense to your obligation to pay.
(h) We will not be liable for the failure or refusal of any merchant
to accept your Visa Card or Visa convenience checks.
YOUR CREDIT LIMIT
If your Visa application is approved, the Credit Union will
establish a self-replenishing line of credit for you, and notify
you of the amount in writing. This means that you can borrow
the full amount of the credit limit, repay the principal in full or
part, and borrow again up to your maximum amount of credit,
as long as you remain a member in good standing of the Credit
Union and continue to be creditworthy. Your credit limit and
the unused portion still available to you will show on your
monthly statement. Your available amount is reduced by the
principal balance owing, accrued finance charges, fees and
late charges, if any. You agree not to let the account balance
exceed your approved credit limit.
If you wish to increase your credit limit, you must apply to the
Credit Union by written, phone, or online application, which
must be approved. Unless prohibited by law, we may increase
your credit limit at any time at our option and will notify you in
writing if we do this. Your credit limit will be reviewed
periodically and you may be requested to provide current
information. We will notify you in writing if we increase,
decrease, or terminate with good cause your credit limit and/or
account. Good cause includes, but is not limited to, your
failure to comply with this agreement or our adverse reevaluation of your creditworthiness.

BALANCE TRANSFERS
You may ask the Credit Union to transfer the balance of your
other credit cards to your EECU Visa account by sending us a
written request to do so or by using a Visa convenience check.
Your written request must state the name of the company, the
address, the account number and the amount of the payoff or
must include a payment stub. Balance Transfers are subject to
fees as outlined in the “OTHER CHARGES” section of this
agreement. If you elect to transfer balances to your EECU Visa
account, the following will apply:
(a) Transfer Amount: We will transfer as much as possible without
exceeding your credit line.
(b) Minimum Payments: Allow four (4) weeks for balances to be
transferred. You should continue paying the minimum
monthly amount due on your other accounts until the
balances have been transferred. We are not responsible for
any late payments, finance charges, disputed amounts or
errors on your other accounts.
(c) Billing Disputes: If you currently have any amounts in a billing
dispute, we recommend that they not be transferred because
you may lose your billing dispute rights.
(d) Finance Charge: Balance Transfers are treated as Cash
Advances and are assessed finance charges from the
transaction date. Finance charges continue until payment in
full is received for the balance.
(e) Closing Accounts: Transferring balances may not
automatically close your other accounts. To do so, you should
contact each company directly.
MONTHLY PAYMENTS
You agree to pay all amounts borrowed plus interest, fees and
other charges called for by this agreement in U.S. dollars using
lawful instruments drawn on U.S. financial institutions. You
agree to make at least your required minimum monthly
payment on or before the due date on your periodic statement.
MINIMUM PAYMENT SCHEDULE
BALANCE
MINIMUM PAYMENT
Under $20
Entire Balance
$20 to $1,000
$20
Over $1,000
2% of the principal balance
Your minimum payment must also include any past-due or overlimit amounts. If your balance exceeds $1,000, increased balances
will result in increased minimum payments.
The minimum payment amount may be applied to the lowest rate
balance. To the extent your payment exceeds the required minimum;
the excess will be applied first to higher rate balances and then to
lower rate balances. Subject to the requirement that payments in
excess of the minimum be applied to higher-rate balances first,
payments are applied in the following order: (a) previously billed
interest, fees and other charges; (b) previously billed Purchases and
Cash Advances; and (c) interest, fees and other charges on
Purchases and Cash Advances during the current billing cycle; and
(d) Purchases and Cash Advances during the current billing cycle.
If you take advantage of any promotional or introductory APR
offers, payments to your account may be applied to the
balances at the promotional or introductory APR offer first and

not to balances with higher APRs until the promotional or
introductory APR balances have been paid in full or have
expired.
You can pay all or part of your full balance due at any time
without prepayment penalty. If you make more than your
required minimum payment, you will still be required to make
your next month's required minimum payment by its due date.
Making more than the required minimum payment will
generally reduce the time it takes to pay off your balance and
the interest you pay.
We may offer “skip payment” promotions from time to time. If
you elect to skip your payment, interest will continue to accrue.
Our offering you a skip payment will not waive our right to
require you to make any other payment on its due date.
MAKING PAYMENTS
Mail the top half of your monthly Visa statement with your check
or other payment instrument to the address shown on your
periodic statement. You may also make your payment at any of
our offices or through the EECU Home Banking site by making a
transfer from your deposit account. It is your responsibility to
ensure that your payment arrives at our payment processing
center on time. We are not responsible for mail lost, damaged or
misdelivered by the postal service.
DO NOT INCLUDE PAYMENTS FOR OTHER
OBLIGATIONS WITH YOUR CREDIT CARD PAYMENT

EECU

FINANCE CHARGES
You will pay interest and other charges on your Visa account.
Interest and some of the other charges are called “Finance
Charges.” Finance Charges are the amounts of money that
you pay for the money that you borrow. In addition to
interest, some of the fees in the “OTHER CHARGES” section
of your Visa Account Agreement and Disclosure, shown in
bold, are considered Finance Charges. To make Visa
accounts available to as many members as possible, we
offer a variety of rates. The actual rate of interest applicable
to your account will depend on a number of factors we may
lawfully consider, including but not limited to your credit
history. When you are approved for a Visa account, we will
disclose the ANNUAL PERCENTAGE RATE and any variable
rate formula that will apply to your Educational Employees
Credit Union Visa account in writing before you can start
using your account.
Finance Charge Calculation Method: Average Daily Balance
(including new purchases): We start by calculating the average
daily balance for the billing period. For each day of the billing
period, we determine the daily balance by adding up all Cash
Advances, Purchases, and debit adjustments plus any amount
outstanding as of your most recent payment, then subtracting
any payments and credits for that day. We then add all of the
daily balances for the billing period and divide them by the
number of days in the billing period. We then multiply the
average daily balance by the monthly periodic rate to
determine the finance charge for that billing period. The
minimum finance charge in a billing cycle is $.50.

Grace Period: You will have a grace period of 25 days on
average for repayment of Purchases. Cash Advances and
Balance Transfers are subject to finance charges from the day
they post to your account until they are paid in full. If you do not
pay your entire statement balance in full within the 25-day grace
period, finance charges will accrue.
We can change your interest rate and other finance charges
by giving you advance notice as is required by applicable
law. Unless you have a variable rate account, changes will
generally apply to transactions initiated more than 14 days
after provision of the notice.
OTHER CHARGES
In addition to Finance Charges, the following fees may be
assessed to your Visa Account. They will be added to the
principal balance and will accrue interest until paid:
•
•
•
•
•
•
•
•
•
•
•

•
•

Late Payment:
Returned Payment:
Over-the-Credit Limit:
Balance Transfer:

Up to $15.00
$24.00
None
$5.00 or 2% of the transfer
amount, whichever is greater
Cash Advance:*
$5.00 or 2% of the cash advance
amount, whichever is greater
Account Research:
$20.00 per hour, one hour
minimum
Statement Copies:
$3.00 per statement
Replacement Cards:
$5.00 per card, plus additional
charge for rush orders
Stop Payment on Recurring
Visa Transaction:
$15.00
Stop Payment on
Visa Convenience Check: $15.00
Visa Convenience Check: The standard cash advance fee
applies to each Visa
Convenience Check paid
Visa Sales Slip Copy:
$12.00 each
Visa Card Rush Order:
2 days - $25.00; 4 days - $15.00

For new accounts, fees and charges are also stated in the Truth
in Lending Credit Card Opening Disclosure incorporated into
this Agreement by reference and provided to you separately
when your account was opened.
*The following are considered Cash Advances: (a) obtaining
cash at an ATM using your Visa card; (b) a Cash Advance at a
financial institution or other entity that offer Visa Cash
Advances; (c) funds from the use of a Visa convenience check;
(d) a Balance Transfer.

CREDITS
If a merchant who honors your card gives you credit for returns
or adjustments, he will do so by sending us a credit slip which we
will post to your account. You will be liable for any finance
charges that accrue between the end of your grace period and
the time the credit posts to your account. If your credits and
payments exceed what you owe, the amount will be applied
against future Purchases and Cash Advances. If the credit is $1

or more, we will refund it to you on your written request. If we do
not receive a refund request, we will automatically post the credit
to your EECU share savings account. We reserve the right to
delay increasing your credit limit or delay disbursing credit
balance refunds until final collection of non-cash payments on
your account for the maximum period allowed by law.
DEFAULT
You will be in default if you fail to make any Minimum
Payment when due in the proper amount, or if you fail to live
up to the terms of this agreement. You will also be in default
if your creditworthiness materially declines, you become
insolvent, you file for bankruptcy relief, you die, or you cease
to be a member of the Credit Union. In addition, you will be
in default if you have made misleading or incorrect
statements or material omissions of information in your
credit application, or you fail to notify the Credit Union of a
change of your employment, your name, or your address.
Even if the Credit Union accepts a late payment or a partial
payment, we are not waiving our right to accelerate payment
of the account and declare the entire unpaid balance due.
We have the right to demand immediate payment of your full
account balance if you default, subject to our giving you any
notice required by law. You agree to pay our reasonable
collection costs before we take legal action. If we take legal
action to collect what you owe, you agree to pay our
reasonable attorney's fees and court costs, whether the
action we take is a collection suit, an action to enforce a
judgment against you, or an action to protect our interests if
you become a bankruptcy debtor. Collection costs and
attorney's fees will post to your Visa account balance as
Cash Advances and bear interest at the rate applicable to
your Visa account until paid in full.

CHANGES IN AGREEMENT TERMS
Your EECU Visa Account Agreement and Disclosure is your
agreement with EECU governing your credit card transactions,
even though sales and Cash Advance slips and other
documents you sign related to your transactions may have
different terms printed on them. This Agreement can only be
modified by a writing signed by an authorized EECU
representative, an official EECU change in terms notice, or the
order of a court to whose jurisdiction we are subject, such as
a bankruptcy court. No oral statements by EECU employees
can alter the terms of this Agreement.
Changes in terms, unless favorable to you, will generally apply
only to transactions made after the effective date of the
change, as specified by applicable state and federal laws and
regulations. If required by law, we will permit you to reject
certain types of changes, by providing the Credit Union with an
opt-out notice and closing your account. You would then be
permitted to repay any balance on the account under the
terms in effect prior to the changes or as permitted by law.
CANCELLATION/TERMINATION OF AGREEMENT
You or any jointly obligated party may cancel this agreement at
any time by notifying us in writing. If we have given you a
written notice of cancellation and you wish to have your

account re-evaluated for a new line of credit, you must reapply
and be approved.

Notify Us in Case of Errors or Questions About Your
Statement or Electronic Transfers

We may reduce your credit line from time to time, or with good
cause, revoke your card and terminate this agreement. We will
give you thirty days' notice before we reduce or terminate your
account without cause. But as indicated, if you breach this
agreement we can terminate it without prior notice to you.
Termination by either of us does not affect your obligation to
pay the account balance, including finance charges. Cards
and loan drafts remain our property and you must recover and
surrender to us all cards and loan drafts upon our request and
upon termination of this agreement.

If you think your statement or other documentation is wrong or
if you need more information about a transaction on your
statement, write us on a separate sheet at: Educational
Employees Credit Union, Card Services, P.O. Box 5242, Fresno
CA 93755-5242. Write to us as soon as possible. We must hear
from you no later than 60 days after the error appeared on the
first statement. You can telephone us at (559) 437-7700 or toll
free at (800) 538-EECU, but doing so will not preserve your
rights.

CREDIT INFORMATION RETAINED AND PROVIDED TO
OTHERS
You authorize us to investigate your credit standing when
opening, renewing, or reviewing your account, and you
authorize us to disclose information regarding your account to
credit bureaus and other creditors who inquire of us about your
credit standing, to the extent authorized by law.
As required by law, you are hereby notified that a negative
credit report reflecting on your credit record may be submitted
to a credit reporting agency, if you fail to fulfill the terms of your
credit obligation.
PERMISSION TO CONTACT YOU
By providing your telephone number you give the Credit Union
(and its agents, third party representatives and service
providers) permission to contact you regarding your accounts,
transactions and services using live representatives,
automated dialing services, prerecorded messages and text
messages. You give the Credit Union permission to leave
messages, including pre-recorded/artificial voice messages,
relating to your accounts, transactions and services. If you
provide a cellular/mobile number you understand that your
carrier may charge fees to receive calls, messages or texts.
You agree to, at all times, provide the Credit Union with at least
one telephone number at which you can be reached during
business hours.

YOUR BILLING RIGHTS
KEEP THIS NOTICE FOR FUTURE USE
STATE AND LOCAL LAW: The following summary of your
rights under federal law does not cover all rights you may
have under State and Local law. If, under State or local law,
you have a longer period of time in which to send an inquiry
to the Credit Union concerning your statement, reliance on
any such longer time period may result in your losing
important rights which could be preserved by acting more
promptly under federal law. State or local provisions, if any,
only become operative upon the expiration of the time
period provided by Federal Regulation Z for submitting a
proper written notification of an error. This notice contains
important information about your rights and responsibilities
under the Fair Credit Billing Act.

In your letter, give us the following information:
• Your name and account number.
• The dollar amount of the suspected error.
• A description of the error and explanation of why you believe
there is an error. If you need more information, describe the
item you are not sure about.
How to Stop Payment of a Pre-authorized Electronic
Fund Transfer
If you have authorized us to make your Visa payment
automatically from your share draft account, you can stop the
payment on any amount you think is wrong. To stop payment
you must contact us in writing within 3 business days before
the automatic payment is scheduled to occur. If you telephone
your request, we will require you to confirm your verbal request
in writing. If you order us to stop one of these payments 3
business days or more before the transfer is scheduled, and
we do not do so, we will be liable for your losses or damages
up to the amount of the transfer.
Your Rights and Our Responsibilities After We Receive
Your Written Notice of Error
We must acknowledge your letter within 30 days, unless we have
corrected the error by then. Within 90 days, we must either correct
the error or explain why we believe the statement is correct.
After we receive your letter and if you have not yet paid the
disputed amount, we cannot try to collect any amount you
question, or report you as delinquent. We can continue to bill
you for the amount you question, including finance charges,
and we can apply any unpaid amount against your credit limit.
You do not have to pay the questioned amount while we are
investigating, but you are still obligated to pay the parts of your
statement that are not in question.
If we find that we made a mistake on your statement, you will not
have to pay any finance charges related to any questioned
amount. If we did not make a mistake, you may have to pay the
finance charge, and you will have to make up any missed
payments on the questioned amount. In either case, we will send
you a statement of the amount you owe and the date that it is due.
If you fail to pay the amount that we think you owe, we may
report you as delinquent. However, if our explanation does not
satisfy you and you write to us within 10 days telling us that you
still refuse to pay, we must tell anyone we report you to that you
have a question about your statement. We must tell you the
name of anyone we reported you to and we must let them
know when the matter has been settled.

Special Rule for Credit Card Purchases
If you have a problem with the quality of property or services
that you purchase with a credit card and you have tried in good
faith to correct the problem with the merchant, you may have
the right not to pay the remaining amount due on the property
or services. There are two limitations on this right:
a) You must have made the purchase in your home state, or if
not within your home state within 100 miles of your current
mailing address; and
(b) The purchase price must have been more than $50. These
limitations do not apply if we own or operate the merchant,
or if we mailed you the advertisement for the property or
services.
Under California law our right to recover outstanding credit
extended to you for Purchases is subject to any defenses that
you have against the seller, if:
1. The purchase price of the item in question exceeded $50;
2. The purchase was made in California;
3. You made a written demand on the retailer and made a
good faith attempt to get satisfaction of your complaint;
and
4. You notify us, in writing, of the name of the seller, the date
of purchase, the price paid, the goods or services
purchased, the nature of your defense and the acts which
you took to obtain satisfaction from the seller.
The amount to which the defense applies is limited to the
amount outstanding on the purchase as well as late charges
and finance charges at the time the written demand is
received by us. This remedy is the only one you have against
us. Your rights are limited to those circumstances outlined in
California Civil Code § 1747.90. Purchases with cash or check
are not included in this section, even though you used your
credit card to validate your credit. We cannot penalize you by
either giving out unfavorable credit information about you or
canceling or refusing to renew your credit card solely because
you obtained relief under the remedies you have for correcting
billing errors.
TERMS APPLICABLE TO VISA PLATINUM MYEECU
REWARDS PROGRAM
Visa Platinum cardholders may participate in the MYEECU
Rewards program which is governed by the Program Rules
outlined in the CURewards brochure. The following additional
rules apply to the CURewards program:
a. No points are earned for a balance transfer from an existing
EECU Visa account or from another credit card.
b. Points will accrue over five calendar years and will expire on
a first-in-first-out basis annually; points earned in calendar
year one will expire as of the last day of calendar year five.
(For example, points earned in 2014 will expire December
31, 2019; points earned in 2015 will expire December 31,
2020, etc.).
c. If your account is closed or becomes inactive for 18
consecutive months or if you fail to make the minimum
payment due by the payment due date for two consecutive
billing periods, your points may be forfeited.

ATM DISCLOSURE
You may use your card to obtain Cash Advances through
Automated Teller Machines that are part of a nationwide network
of Visa ATMs. These special provisions apply.
AVAILABLE SERVICES
1. The amount of cash you can obtain may vary depending on
the ATM you use.
2. ATM service is generally available seven days a week, 24
hours a day.
DOCUMENTATION OF TRANSACTIONS
Cash Advances using your Visa card at an ATM will be shown on
a transaction receipt and on your periodic statement.
CREDIT UNION LIABILITY
If we do not properly complete a transaction according to our
agreement with you, we will be liable for your direct losses or
damages. However, there are some exceptions. We will not be
liable, if:
a. through no fault of ours, you do not have sufficient available
credit to make the transaction;
b. the ATM system was not working properly and you knew
about the breakdown when you started the transaction;
c. the money in your account is subject to legal process or other
claim;
d. your PIN (Personal Identification Number) has been reported
missing and we have blocked its use;
e. circumstances beyond our control, such as fire, flood,
electrical failure, or malfunction of the central data processing
facility prevent the completion of the transaction despite our
reasonable precautions; or
f. there are other lawful exceptions established by us and you
are given proper advance notice of them.
In no event will the Credit Union be liable for consequential
indirect costs or damages.
FEES
If you perform a Cash Advance at an ATM not owned by us, the
owner of the ATM may charge an ATM transaction fee.
SECURITY
Do not use an ATM unless it appears safe to do so. Do not key
in your PIN if someone is looking. Be sure you take your card and
receipt when you are done. Put your money away quickly and
leave the site.

VISA ACCOUNT AGREEMENT
and
DISCLOSURE
EDUCATIONAL EMPLOYEES CREDIT UNION
Shaded Paragraphs Are Truth in Lending Requirements.
This agreement outlines the terms and conditions of your
Educational Employees Credit Union Visa account and provides
certain disclosure information required by government
regulations. Keep this disclosure with your permanent
documents.
In this document, the words "you," "your," and "yours," refer to
each and all of those who apply for a Visa credit card, sign the
agreement, or all parties who use the card. The words "we," "us,"
"our," “Credit Union,” and “EECU” refer to the Educational
Employees Credit Union. The term "card" refers to the Visa
credit card received with this agreement and any duplicates
and/or renewals we issue. The term "account" refers to your Visa
credit card line of credit account with us.
You acknowledge receipt of a copy of this Visa Account
Agreement and Disclosure. By using the card, any access
device, or by authorizing another person to use your account,
you agree to and accept the terms as stated.
GENERAL TERMS
The terms of this agreement must be read together as part of the
whole agreement. When the singular is used the plural is implied
if there is more than one signer. If any part of this agreement is
found to be invalid the other parts shall remain in effect.
Any borrower who receives a card issued under this agreement
must be a member of this Credit Union.
YOUR RESPONSIBILITY
If your application is approved, each applicant will receive a card
and will be able to use the account. The applicants may also
receive Visa convenience checks from time to time at the Credit
Union's option. Each applicant is liable to repay the account
under the terms of this agreement.

Federally Insured by NCUA
©EECU
(V.2.22.2010)

DISC 2 25M (12/15)

M-116986

You agree to make your payments when due, and in an amount

or more, we will refund it to you on your written request. If we do
not receive a refund request, we will automatically post the credit
to your EECU share savings account. We reserve the right to
delay increasing your credit limit or delay disbursing credit
balance refunds until final collection of non-cash payments on
your account for the maximum period allowed by law.
DEFAULT
You will be in default if you fail to make any Minimum
Payment when due in the proper amount, or if you fail to live
up to the terms of this agreement. You will also be in default
if your creditworthiness materially declines, you become
insolvent, you file for bankruptcy relief, you die, or you cease
to be a member of the Credit Union. In addition, you will be
in default if you have made misleading or incorrect
statements or material omissions of information in your
credit application, or you fail to notify the Credit Union of a
change of your employment, your name, or your address.
Even if the Credit Union accepts a late payment or a partial
payment, we are not waiving our right to accelerate payment
of the account and declare the entire unpaid balance due.
We have the right to demand immediate payment of your full
account balance if you default, subject to our giving you any
notice required by law. You agree to pay our reasonable
collection costs before we take legal action. If we take legal
action to collect what you owe, you agree to pay our
reasonable attorney's fees and court costs, whether the
action we take is a collection suit, an action to enforce a
judgment against you, or an action to protect our interests if
you become a bankruptcy debtor. Collection costs and
attorney's fees will post to your Visa account balance as
Cash Advances and bear interest at the rate applicable to
your Visa account until paid in full.

CHANGES IN AGREEMENT TERMS
Your EECU Visa Account Agreement and Disclosure is your
agreement with EECU governing your credit card transactions,
even though sales and Cash Advance slips and other
documents you sign related to your transactions may have
different terms printed on them. This Agreement can only be
modified by a writing signed by an authorized EECU
representative, an official EECU change in terms notice, or the
order of a court to whose jurisdiction we are subject, such as
a bankruptcy court. No oral statements by EECU employees
can alter the terms of this Agreement.
Changes in terms, unless favorable to you, will generally apply
only to transactions made after the effective date of the
change, as specified by applicable state and federal laws and
regulations. If required by law, we will permit you to reject
certain types of changes, by providing the Credit Union with an
opt-out notice and closing your account. You would then be
permitted to repay any balance on the account under the
terms in effect prior to the changes or as permitted by law.
CANCELLATION/TERMINATION OF AGREEMENT
You or any jointly obligated party may cancel this agreement at
any time by notifying us in writing. If we have given you a
written notice of cancellation and you wish to have your

account re-evaluated for a new line of credit, you must reapply
and be approved.

Notify Us in Case of Errors or Questions About Your
Statement or Electronic Transfers

We may reduce your credit line from time to time, or with good
cause, revoke your card and terminate this agreement. We will
give you thirty days' notice before we reduce or terminate your
account without cause. But as indicated, if you breach this
agreement we can terminate it without prior notice to you.
Termination by either of us does not affect your obligation to
pay the account balance, including finance charges. Cards
and loan drafts remain our property and you must recover and
surrender to us all cards and loan drafts upon our request and
upon termination of this agreement.

If you think your statement or other documentation is wrong or
if you need more information about a transaction on your
statement, write us on a separate sheet at: Educational
Employees Credit Union, Card Services, P.O. Box 5242, Fresno
CA 93755-5242. Write to us as soon as possible. We must hear
from you no later than 60 days after the error appeared on the
first statement. You can telephone us at (559) 437-7700 or toll
free at (800) 538-EECU, but doing so will not preserve your
rights.

CREDIT INFORMATION RETAINED AND PROVIDED TO
OTHERS
You authorize us to investigate your credit standing when
opening, renewing, or reviewing your account, and you
authorize us to disclose information regarding your account to
credit bureaus and other creditors who inquire of us about your
credit standing, to the extent authorized by law.
As required by law, you are hereby notified that a negative
credit report reflecting on your credit record may be submitted
to a credit reporting agency, if you fail to fulfill the terms of your
credit obligation.
PERMISSION TO CONTACT YOU
By providing your telephone number you give the Credit Union
(and its agents, third party representatives and service
providers) permission to contact you regarding your accounts,
transactions and services using live representatives,
automated dialing services, prerecorded messages and text
messages. You give the Credit Union permission to leave
messages, including pre-recorded/artificial voice messages,
relating to your accounts, transactions and services. If you
provide a cellular/mobile number you understand that your
carrier may charge fees to receive calls, messages or texts.
You agree to, at all times, provide the Credit Union with at least
one telephone number at which you can be reached during
business hours.

YOUR BILLING RIGHTS
KEEP THIS NOTICE FOR FUTURE USE
STATE AND LOCAL LAW: The following summary of your
rights under federal law does not cover all rights you may
have under State and Local law. If, under State or local law,
you have a longer period of time in which to send an inquiry
to the Credit Union concerning your statement, reliance on
any such longer time period may result in your losing
important rights which could be preserved by acting more
promptly under federal law. State or local provisions, if any,
only become operative upon the expiration of the time
period provided by Federal Regulation Z for submitting a
proper written notification of an error. This notice contains
important information about your rights and responsibilities
under the Fair Credit Billing Act.

In your letter, give us the following information:
• Your name and account number.
• The dollar amount of the suspected error.
• A description of the error and explanation of why you believe
there is an error. If you need more information, describe the
item you are not sure about.
How to Stop Payment of a Pre-authorized Electronic
Fund Transfer
If you have authorized us to make your Visa payment
automatically from your share draft account, you can stop the
payment on any amount you think is wrong. To stop payment
you must contact us in writing within 3 business days before
the automatic payment is scheduled to occur. If you telephone
your request, we will require you to confirm your verbal request
in writing. If you order us to stop one of these payments 3
business days or more before the transfer is scheduled, and
we do not do so, we will be liable for your losses or damages
up to the amount of the transfer.
Your Rights and Our Responsibilities After We Receive
Your Written Notice of Error
We must acknowledge your letter within 30 days, unless we have
corrected the error by then. Within 90 days, we must either correct
the error or explain why we believe the statement is correct.
After we receive your letter and if you have not yet paid the
disputed amount, we cannot try to collect any amount you
question, or report you as delinquent. We can continue to bill
you for the amount you question, including finance charges,
and we can apply any unpaid amount against your credit limit.
You do not have to pay the questioned amount while we are
investigating, but you are still obligated to pay the parts of your
statement that are not in question.
If we find that we made a mistake on your statement, you will not
have to pay any finance charges related to any questioned
amount. If we did not make a mistake, you may have to pay the
finance charge, and you will have to make up any missed
payments on the questioned amount. In either case, we will send
you a statement of the amount you owe and the date that it is due.
If you fail to pay the amount that we think you owe, we may
report you as delinquent. However, if our explanation does not
satisfy you and you write to us within 10 days telling us that you
still refuse to pay, we must tell anyone we report you to that you
have a question about your statement. We must tell you the
name of anyone we reported you to and we must let them
know when the matter has been settled.

Special Rule for Credit Card Purchases
If you have a problem with the quality of property or services
that you purchase with a credit card and you have tried in good
faith to correct the problem with the merchant, you may have
the right not to pay the remaining amount due on the property
or services. There are two limitations on this right:
a) You must have made the purchase in your home state, or if
not within your home state within 100 miles of your current
mailing address; and
(b) The purchase price must have been more than $50. These
limitations do not apply if we own or operate the merchant,
or if we mailed you the advertisement for the property or
services.
Under California law our right to recover outstanding credit
extended to you for Purchases is subject to any defenses that
you have against the seller, if:
1. The purchase price of the item in question exceeded $50;
2. The purchase was made in California;
3. You made a written demand on the retailer and made a
good faith attempt to get satisfaction of your complaint;
and
4. You notify us, in writing, of the name of the seller, the date
of purchase, the price paid, the goods or services
purchased, the nature of your defense and the acts which
you took to obtain satisfaction from the seller.
The amount to which the defense applies is limited to the
amount outstanding on the purchase as well as late charges
and finance charges at the time the written demand is
received by us. This remedy is the only one you have against
us. Your rights are limited to those circumstances outlined in
California Civil Code § 1747.90. Purchases with cash or check
are not included in this section, even though you used your
credit card to validate your credit. We cannot penalize you by
either giving out unfavorable credit information about you or
canceling or refusing to renew your credit card solely because
you obtained relief under the remedies you have for correcting
billing errors.
TERMS APPLICABLE TO VISA PLATINUM MYEECU
REWARDS PROGRAM
Visa Platinum cardholders may participate in the MYEECU
Rewards program which is governed by the Program Rules
outlined in the CURewards brochure. The following additional
rules apply to the CURewards program:
a. No points are earned for a balance transfer from an existing
EECU Visa account or from another credit card.
b. Points will accrue over five calendar years and will expire on
a first-in-first-out basis annually; points earned in calendar
year one will expire as of the last day of calendar year five.
(For example, points earned in 2014 will expire December
31, 2019; points earned in 2015 will expire December 31,
2020, etc.).
c. If your account is closed or becomes inactive for 18
consecutive months or if you fail to make the minimum
payment due by the payment due date for two consecutive
billing periods, your points may be forfeited.

ATM DISCLOSURE
You may use your card to obtain Cash Advances through
Automated Teller Machines that are part of a nationwide network
of Visa ATMs. These special provisions apply.
AVAILABLE SERVICES
1. The amount of cash you can obtain may vary depending on
the ATM you use.
2. ATM service is generally available seven days a week, 24
hours a day.
DOCUMENTATION OF TRANSACTIONS
Cash Advances using your Visa card at an ATM will be shown on
a transaction receipt and on your periodic statement.
CREDIT UNION LIABILITY
If we do not properly complete a transaction according to our
agreement with you, we will be liable for your direct losses or
damages. However, there are some exceptions. We will not be
liable, if:
a. through no fault of ours, you do not have sufficient available
credit to make the transaction;
b. the ATM system was not working properly and you knew
about the breakdown when you started the transaction;
c. the money in your account is subject to legal process or other
claim;
d. your PIN (Personal Identification Number) has been reported
missing and we have blocked its use;
e. circumstances beyond our control, such as fire, flood,
electrical failure, or malfunction of the central data processing
facility prevent the completion of the transaction despite our
reasonable precautions; or
f. there are other lawful exceptions established by us and you
are given proper advance notice of them.
In no event will the Credit Union be liable for consequential
indirect costs or damages.
FEES
If you perform a Cash Advance at an ATM not owned by us, the
owner of the ATM may charge an ATM transaction fee.
SECURITY
Do not use an ATM unless it appears safe to do so. Do not key
in your PIN if someone is looking. Be sure you take your card and
receipt when you are done. Put your money away quickly and
leave the site.

VISA ACCOUNT AGREEMENT
and
DISCLOSURE
EDUCATIONAL EMPLOYEES CREDIT UNION
Shaded Paragraphs Are Truth in Lending Requirements.
This agreement outlines the terms and conditions of your
Educational Employees Credit Union Visa account and provides
certain disclosure information required by government
regulations. Keep this disclosure with your permanent
documents.
In this document, the words "you," "your," and "yours," refer to
each and all of those who apply for a Visa credit card, sign the
agreement, or all parties who use the card. The words "we," "us,"
"our," “Credit Union,” and “EECU” refer to the Educational
Employees Credit Union. The term "card" refers to the Visa
credit card received with this agreement and any duplicates
and/or renewals we issue. The term "account" refers to your Visa
credit card line of credit account with us.
You acknowledge receipt of a copy of this Visa Account
Agreement and Disclosure. By using the card, any access
device, or by authorizing another person to use your account,
you agree to and accept the terms as stated.
GENERAL TERMS
The terms of this agreement must be read together as part of the
whole agreement. When the singular is used the plural is implied
if there is more than one signer. If any part of this agreement is
found to be invalid the other parts shall remain in effect.
Any borrower who receives a card issued under this agreement
must be a member of this Credit Union.
YOUR RESPONSIBILITY
If your application is approved, each applicant will receive a card
and will be able to use the account. The applicants may also
receive Visa convenience checks from time to time at the Credit
Union's option. Each applicant is liable to repay the account
under the terms of this agreement.

Federally Insured by NCUA
©EECU
(V.2.22.2010)

DISC 2 25M (12/15)

M-116986

You agree to make your payments when due, and in an amount

or more, we will refund it to you on your written request. If we do
not receive a refund request, we will automatically post the credit
to your EECU share savings account. We reserve the right to
delay increasing your credit limit or delay disbursing credit
balance refunds until final collection of non-cash payments on
your account for the maximum period allowed by law.
DEFAULT
You will be in default if you fail to make any Minimum
Payment when due in the proper amount, or if you fail to live
up to the terms of this agreement. You will also be in default
if your creditworthiness materially declines, you become
insolvent, you file for bankruptcy relief, you die, or you cease
to be a member of the Credit Union. In addition, you will be
in default if you have made misleading or incorrect
statements or material omissions of information in your
credit application, or you fail to notify the Credit Union of a
change of your employment, your name, or your address.
Even if the Credit Union accepts a late payment or a partial
payment, we are not waiving our right to accelerate payment
of the account and declare the entire unpaid balance due.
We have the right to demand immediate payment of your full
account balance if you default, subject to our giving you any
notice required by law. You agree to pay our reasonable
collection costs before we take legal action. If we take legal
action to collect what you owe, you agree to pay our
reasonable attorney's fees and court costs, whether the
action we take is a collection suit, an action to enforce a
judgment against you, or an action to protect our interests if
you become a bankruptcy debtor. Collection costs and
attorney's fees will post to your Visa account balance as
Cash Advances and bear interest at the rate applicable to
your Visa account until paid in full.

CHANGES IN AGREEMENT TERMS
Your EECU Visa Account Agreement and Disclosure is your
agreement with EECU governing your credit card transactions,
even though sales and Cash Advance slips and other
documents you sign related to your transactions may have
different terms printed on them. This Agreement can only be
modified by a writing signed by an authorized EECU
representative, an official EECU change in terms notice, or the
order of a court to whose jurisdiction we are subject, such as
a bankruptcy court. No oral statements by EECU employees
can alter the terms of this Agreement.
Changes in terms, unless favorable to you, will generally apply
only to transactions made after the effective date of the
change, as specified by applicable state and federal laws and
regulations. If required by law, we will permit you to reject
certain types of changes, by providing the Credit Union with an
opt-out notice and closing your account. You would then be
permitted to repay any balance on the account under the
terms in effect prior to the changes or as permitted by law.
CANCELLATION/TERMINATION OF AGREEMENT
You or any jointly obligated party may cancel this agreement at
any time by notifying us in writing. If we have given you a
written notice of cancellation and you wish to have your

account re-evaluated for a new line of credit, you must reapply
and be approved.

Notify Us in Case of Errors or Questions About Your
Statement or Electronic Transfers

We may reduce your credit line from time to time, or with good
cause, revoke your card and terminate this agreement. We will
give you thirty days' notice before we reduce or terminate your
account without cause. But as indicated, if you breach this
agreement we can terminate it without prior notice to you.
Termination by either of us does not affect your obligation to
pay the account balance, including finance charges. Cards
and loan drafts remain our property and you must recover and
surrender to us all cards and loan drafts upon our request and
upon termination of this agreement.

If you think your statement or other documentation is wrong or
if you need more information about a transaction on your
statement, write us on a separate sheet at: Educational
Employees Credit Union, Card Services, P.O. Box 5242, Fresno
CA 93755-5242. Write to us as soon as possible. We must hear
from you no later than 60 days after the error appeared on the
first statement. You can telephone us at (559) 437-7700 or toll
free at (800) 538-EECU, but doing so will not preserve your
rights.

CREDIT INFORMATION RETAINED AND PROVIDED TO
OTHERS
You authorize us to investigate your credit standing when
opening, renewing, or reviewing your account, and you
authorize us to disclose information regarding your account to
credit bureaus and other creditors who inquire of us about your
credit standing, to the extent authorized by law.
As required by law, you are hereby notified that a negative
credit report reflecting on your credit record may be submitted
to a credit reporting agency, if you fail to fulfill the terms of your
credit obligation.
PERMISSION TO CONTACT YOU
By providing your telephone number you give the Credit Union
(and its agents, third party representatives and service
providers) permission to contact you regarding your accounts,
transactions and services using live representatives,
automated dialing services, prerecorded messages and text
messages. You give the Credit Union permission to leave
messages, including pre-recorded/artificial voice messages,
relating to your accounts, transactions and services. If you
provide a cellular/mobile number you understand that your
carrier may charge fees to receive calls, messages or texts.
You agree to, at all times, provide the Credit Union with at least
one telephone number at which you can be reached during
business hours.

YOUR BILLING RIGHTS
KEEP THIS NOTICE FOR FUTURE USE
STATE AND LOCAL LAW: The following summary of your
rights under federal law does not cover all rights you may
have under State and Local law. If, under State or local law,
you have a longer period of time in which to send an inquiry
to the Credit Union concerning your statement, reliance on
any such longer time period may result in your losing
important rights which could be preserved by acting more
promptly under federal law. State or local provisions, if any,
only become operative upon the expiration of the time
period provided by Federal Regulation Z for submitting a
proper written notification of an error. This notice contains
important information about your rights and responsibilities
under the Fair Credit Billing Act.

In your letter, give us the following information:
• Your name and account number.
• The dollar amount of the suspected error.
• A description of the error and explanation of why you believe
there is an error. If you need more information, describe the
item you are not sure about.
How to Stop Payment of a Pre-authorized Electronic
Fund Transfer
If you have authorized us to make your Visa payment
automatically from your share draft account, you can stop the
payment on any amount you think is wrong. To stop payment
you must contact us in writing within 3 business days before
the automatic payment is scheduled to occur. If you telephone
your request, we will require you to confirm your verbal request
in writing. If you order us to stop one of these payments 3
business days or more before the transfer is scheduled, and
we do not do so, we will be liable for your losses or damages
up to the amount of the transfer.
Your Rights and Our Responsibilities After We Receive
Your Written Notice of Error
We must acknowledge your letter within 30 days, unless we have
corrected the error by then. Within 90 days, we must either correct
the error or explain why we believe the statement is correct.
After we receive your letter and if you have not yet paid the
disputed amount, we cannot try to collect any amount you
question, or report you as delinquent. We can continue to bill
you for the amount you question, including finance charges,
and we can apply any unpaid amount against your credit limit.
You do not have to pay the questioned amount while we are
investigating, but you are still obligated to pay the parts of your
statement that are not in question.
If we find that we made a mistake on your statement, you will not
have to pay any finance charges related to any questioned
amount. If we did not make a mistake, you may have to pay the
finance charge, and you will have to make up any missed
payments on the questioned amount. In either case, we will send
you a statement of the amount you owe and the date that it is due.
If you fail to pay the amount that we think you owe, we may
report you as delinquent. However, if our explanation does not
satisfy you and you write to us within 10 days telling us that you
still refuse to pay, we must tell anyone we report you to that you
have a question about your statement. We must tell you the
name of anyone we reported you to and we must let them
know when the matter has been settled.

Special Rule for Credit Card Purchases
If you have a problem with the quality of property or services
that you purchase with a credit card and you have tried in good
faith to correct the problem with the merchant, you may have
the right not to pay the remaining amount due on the property
or services. There are two limitations on this right:
a) You must have made the purchase in your home state, or if
not within your home state within 100 miles of your current
mailing address; and
(b) The purchase price must have been more than $50. These
limitations do not apply if we own or operate the merchant,
or if we mailed you the advertisement for the property or
services.
Under California law our right to recover outstanding credit
extended to you for Purchases is subject to any defenses that
you have against the seller, if:
1. The purchase price of the item in question exceeded $50;
2. The purchase was made in California;
3. You made a written demand on the retailer and made a
good faith attempt to get satisfaction of your complaint;
and
4. You notify us, in writing, of the name of the seller, the date
of purchase, the price paid, the goods or services
purchased, the nature of your defense and the acts which
you took to obtain satisfaction from the seller.
The amount to which the defense applies is limited to the
amount outstanding on the purchase as well as late charges
and finance charges at the time the written demand is
received by us. This remedy is the only one you have against
us. Your rights are limited to those circumstances outlined in
California Civil Code § 1747.90. Purchases with cash or check
are not included in this section, even though you used your
credit card to validate your credit. We cannot penalize you by
either giving out unfavorable credit information about you or
canceling or refusing to renew your credit card solely because
you obtained relief under the remedies you have for correcting
billing errors.
TERMS APPLICABLE TO VISA PLATINUM MYEECU
REWARDS PROGRAM
Visa Platinum cardholders may participate in the MYEECU
Rewards program which is governed by the Program Rules
outlined in the CURewards brochure. The following additional
rules apply to the CURewards program:
a. No points are earned for a balance transfer from an existing
EECU Visa account or from another credit card.
b. Points will accrue over five calendar years and will expire on
a first-in-first-out basis annually; points earned in calendar
year one will expire as of the last day of calendar year five.
(For example, points earned in 2014 will expire December
31, 2019; points earned in 2015 will expire December 31,
2020, etc.).
c. If your account is closed or becomes inactive for 18
consecutive months or if you fail to make the minimum
payment due by the payment due date for two consecutive
billing periods, your points may be forfeited.

ATM DISCLOSURE
You may use your card to obtain Cash Advances through
Automated Teller Machines that are part of a nationwide network
of Visa ATMs. These special provisions apply.
AVAILABLE SERVICES
1. The amount of cash you can obtain may vary depending on
the ATM you use.
2. ATM service is generally available seven days a week, 24
hours a day.
DOCUMENTATION OF TRANSACTIONS
Cash Advances using your Visa card at an ATM will be shown on
a transaction receipt and on your periodic statement.
CREDIT UNION LIABILITY
If we do not properly complete a transaction according to our
agreement with you, we will be liable for your direct losses or
damages. However, there are some exceptions. We will not be
liable, if:
a. through no fault of ours, you do not have sufficient available
credit to make the transaction;
b. the ATM system was not working properly and you knew
about the breakdown when you started the transaction;
c. the money in your account is subject to legal process or other
claim;
d. your PIN (Personal Identification Number) has been reported
missing and we have blocked its use;
e. circumstances beyond our control, such as fire, flood,
electrical failure, or malfunction of the central data processing
facility prevent the completion of the transaction despite our
reasonable precautions; or
f. there are other lawful exceptions established by us and you
are given proper advance notice of them.
In no event will the Credit Union be liable for consequential
indirect costs or damages.
FEES
If you perform a Cash Advance at an ATM not owned by us, the
owner of the ATM may charge an ATM transaction fee.
SECURITY
Do not use an ATM unless it appears safe to do so. Do not key
in your PIN if someone is looking. Be sure you take your card and
receipt when you are done. Put your money away quickly and
leave the site.

VISA ACCOUNT AGREEMENT
and
DISCLOSURE
EDUCATIONAL EMPLOYEES CREDIT UNION
Shaded Paragraphs Are Truth in Lending Requirements.
This agreement outlines the terms and conditions of your
Educational Employees Credit Union Visa account and provides
certain disclosure information required by government
regulations. Keep this disclosure with your permanent
documents.
In this document, the words "you," "your," and "yours," refer to
each and all of those who apply for a Visa credit card, sign the
agreement, or all parties who use the card. The words "we," "us,"
"our," “Credit Union,” and “EECU” refer to the Educational
Employees Credit Union. The term "card" refers to the Visa
credit card received with this agreement and any duplicates
and/or renewals we issue. The term "account" refers to your Visa
credit card line of credit account with us.
You acknowledge receipt of a copy of this Visa Account
Agreement and Disclosure. By using the card, any access
device, or by authorizing another person to use your account,
you agree to and accept the terms as stated.
GENERAL TERMS
The terms of this agreement must be read together as part of the
whole agreement. When the singular is used the plural is implied
if there is more than one signer. If any part of this agreement is
found to be invalid the other parts shall remain in effect.
Any borrower who receives a card issued under this agreement
must be a member of this Credit Union.
YOUR RESPONSIBILITY
If your application is approved, each applicant will receive a card
and will be able to use the account. The applicants may also
receive Visa convenience checks from time to time at the Credit
Union's option. Each applicant is liable to repay the account
under the terms of this agreement.

Federally Insured by NCUA
©EECU
(V.2.22.2010)

DISC 2 25M (12/15)

M-116986

You agree to make your payments when due, and in an amount

or more, we will refund it to you on your written request. If we do
not receive a refund request, we will automatically post the credit
to your EECU share savings account. We reserve the right to
delay increasing your credit limit or delay disbursing credit
balance refunds until final collection of non-cash payments on
your account for the maximum period allowed by law.
DEFAULT
You will be in default if you fail to make any Minimum
Payment when due in the proper amount, or if you fail to live
up to the terms of this agreement. You will also be in default
if your creditworthiness materially declines, you become
insolvent, you file for bankruptcy relief, you die, or you cease
to be a member of the Credit Union. In addition, you will be
in default if you have made misleading or incorrect
statements or material omissions of information in your
credit application, or you fail to notify the Credit Union of a
change of your employment, your name, or your address.
Even if the Credit Union accepts a late payment or a partial
payment, we are not waiving our right to accelerate payment
of the account and declare the entire unpaid balance due.
We have the right to demand immediate payment of your full
account balance if you default, subject to our giving you any
notice required by law. You agree to pay our reasonable
collection costs before we take legal action. If we take legal
action to collect what you owe, you agree to pay our
reasonable attorney's fees and court costs, whether the
action we take is a collection suit, an action to enforce a
judgment against you, or an action to protect our interests if
you become a bankruptcy debtor. Collection costs and
attorney's fees will post to your Visa account balance as
Cash Advances and bear interest at the rate applicable to
your Visa account until paid in full.

CHANGES IN AGREEMENT TERMS
Your EECU Visa Account Agreement and Disclosure is your
agreement with EECU governing your credit card transactions,
even though sales and Cash Advance slips and other
documents you sign related to your transactions may have
different terms printed on them. This Agreement can only be
modified by a writing signed by an authorized EECU
representative, an official EECU change in terms notice, or the
order of a court to whose jurisdiction we are subject, such as
a bankruptcy court. No oral statements by EECU employees
can alter the terms of this Agreement.
Changes in terms, unless favorable to you, will generally apply
only to transactions made after the effective date of the
change, as specified by applicable state and federal laws and
regulations. If required by law, we will permit you to reject
certain types of changes, by providing the Credit Union with an
opt-out notice and closing your account. You would then be
permitted to repay any balance on the account under the
terms in effect prior to the changes or as permitted by law.
CANCELLATION/TERMINATION OF AGREEMENT
You or any jointly obligated party may cancel this agreement at
any time by notifying us in writing. If we have given you a
written notice of cancellation and you wish to have your

account re-evaluated for a new line of credit, you must reapply
and be approved.

Notify Us in Case of Errors or Questions About Your
Statement or Electronic Transfers

We may reduce your credit line from time to time, or with good
cause, revoke your card and terminate this agreement. We will
give you thirty days' notice before we reduce or terminate your
account without cause. But as indicated, if you breach this
agreement we can terminate it without prior notice to you.
Termination by either of us does not affect your obligation to
pay the account balance, including finance charges. Cards
and loan drafts remain our property and you must recover and
surrender to us all cards and loan drafts upon our request and
upon termination of this agreement.

If you think your statement or other documentation is wrong or
if you need more information about a transaction on your
statement, write us on a separate sheet at: Educational
Employees Credit Union, Card Services, P.O. Box 5242, Fresno
CA 93755-5242. Write to us as soon as possible. We must hear
from you no later than 60 days after the error appeared on the
first statement. You can telephone us at (559) 437-7700 or toll
free at (800) 538-EECU, but doing so will not preserve your
rights.

CREDIT INFORMATION RETAINED AND PROVIDED TO
OTHERS
You authorize us to investigate your credit standing when
opening, renewing, or reviewing your account, and you
authorize us to disclose information regarding your account to
credit bureaus and other creditors who inquire of us about your
credit standing, to the extent authorized by law.
As required by law, you are hereby notified that a negative
credit report reflecting on your credit record may be submitted
to a credit reporting agency, if you fail to fulfill the terms of your
credit obligation.
PERMISSION TO CONTACT YOU
By providing your telephone number you give the Credit Union
(and its agents, third party representatives and service
providers) permission to contact you regarding your accounts,
transactions and services using live representatives,
automated dialing services, prerecorded messages and text
messages. You give the Credit Union permission to leave
messages, including pre-recorded/artificial voice messages,
relating to your accounts, transactions and services. If you
provide a cellular/mobile number you understand that your
carrier may charge fees to receive calls, messages or texts.
You agree to, at all times, provide the Credit Union with at least
one telephone number at which you can be reached during
business hours.

YOUR BILLING RIGHTS
KEEP THIS NOTICE FOR FUTURE USE
STATE AND LOCAL LAW: The following summary of your
rights under federal law does not cover all rights you may
have under State and Local law. If, under State or local law,
you have a longer period of time in which to send an inquiry
to the Credit Union concerning your statement, reliance on
any such longer time period may result in your losing
important rights which could be preserved by acting more
promptly under federal law. State or local provisions, if any,
only become operative upon the expiration of the time
period provided by Federal Regulation Z for submitting a
proper written notification of an error. This notice contains
important information about your rights and responsibilities
under the Fair Credit Billing Act.

In your letter, give us the following information:
• Your name and account number.
• The dollar amount of the suspected error.
• A description of the error and explanation of why you believe
there is an error. If you need more information, describe the
item you are not sure about.
How to Stop Payment of a Pre-authorized Electronic
Fund Transfer
If you have authorized us to make your Visa payment
automatically from your share draft account, you can stop the
payment on any amount you think is wrong. To stop payment
you must contact us in writing within 3 business days before
the automatic payment is scheduled to occur. If you telephone
your request, we will require you to confirm your verbal request
in writing. If you order us to stop one of these payments 3
business days or more before the transfer is scheduled, and
we do not do so, we will be liable for your losses or damages
up to the amount of the transfer.
Your Rights and Our Responsibilities After We Receive
Your Written Notice of Error
We must acknowledge your letter within 30 days, unless we have
corrected the error by then. Within 90 days, we must either correct
the error or explain why we believe the statement is correct.
After we receive your letter and if you have not yet paid the
disputed amount, we cannot try to collect any amount you
question, or report you as delinquent. We can continue to bill
you for the amount you question, including finance charges,
and we can apply any unpaid amount against your credit limit.
You do not have to pay the questioned amount while we are
investigating, but you are still obligated to pay the parts of your
statement that are not in question.
If we find that we made a mistake on your statement, you will not
have to pay any finance charges related to any questioned
amount. If we did not make a mistake, you may have to pay the
finance charge, and you will have to make up any missed
payments on the questioned amount. In either case, we will send
you a statement of the amount you owe and the date that it is due.
If you fail to pay the amount that we think you owe, we may
report you as delinquent. However, if our explanation does not
satisfy you and you write to us within 10 days telling us that you
still refuse to pay, we must tell anyone we report you to that you
have a question about your statement. We must tell you the
name of anyone we reported you to and we must let them
know when the matter has been settled.

Special Rule for Credit Card Purchases
If you have a problem with the quality of property or services
that you purchase with a credit card and you have tried in good
faith to correct the problem with the merchant, you may have
the right not to pay the remaining amount due on the property
or services. There are two limitations on this right:
a) You must have made the purchase in your home state, or if
not within your home state within 100 miles of your current
mailing address; and
(b) The purchase price must have been more than $50. These
limitations do not apply if we own or operate the merchant,
or if we mailed you the advertisement for the property or
services.
Under California law our right to recover outstanding credit
extended to you for Purchases is subject to any defenses that
you have against the seller, if:
1. The purchase price of the item in question exceeded $50;
2. The purchase was made in California;
3. You made a written demand on the retailer and made a
good faith attempt to get satisfaction of your complaint;
and
4. You notify us, in writing, of the name of the seller, the date
of purchase, the price paid, the goods or services
purchased, the nature of your defense and the acts which
you took to obtain satisfaction from the seller.
The amount to which the defense applies is limited to the
amount outstanding on the purchase as well as late charges
and finance charges at the time the written demand is
received by us. This remedy is the only one you have against
us. Your rights are limited to those circumstances outlined in
California Civil Code § 1747.90. Purchases with cash or check
are not included in this section, even though you used your
credit card to validate your credit. We cannot penalize you by
either giving out unfavorable credit information about you or
canceling or refusing to renew your credit card solely because
you obtained relief under the remedies you have for correcting
billing errors.
TERMS APPLICABLE TO VISA PLATINUM MYEECU
REWARDS PROGRAM
Visa Platinum cardholders may participate in the MYEECU
Rewards program which is governed by the Program Rules
outlined in the CURewards brochure. The following additional
rules apply to the CURewards program:
a. No points are earned for a balance transfer from an existing
EECU Visa account or from another credit card.
b. Points will accrue over five calendar years and will expire on
a first-in-first-out basis annually; points earned in calendar
year one will expire as of the last day of calendar year five.
(For example, points earned in 2014 will expire December
31, 2019; points earned in 2015 will expire December 31,
2020, etc.).
c. If your account is closed or becomes inactive for 18
consecutive months or if you fail to make the minimum
payment due by the payment due date for two consecutive
billing periods, your points may be forfeited.

ATM DISCLOSURE
You may use your card to obtain Cash Advances through
Automated Teller Machines that are part of a nationwide network
of Visa ATMs. These special provisions apply.
AVAILABLE SERVICES
1. The amount of cash you can obtain may vary depending on
the ATM you use.
2. ATM service is generally available seven days a week, 24
hours a day.
DOCUMENTATION OF TRANSACTIONS
Cash Advances using your Visa card at an ATM will be shown on
a transaction receipt and on your periodic statement.
CREDIT UNION LIABILITY
If we do not properly complete a transaction according to our
agreement with you, we will be liable for your direct losses or
damages. However, there are some exceptions. We will not be
liable, if:
a. through no fault of ours, you do not have sufficient available
credit to make the transaction;
b. the ATM system was not working properly and you knew
about the breakdown when you started the transaction;
c. the money in your account is subject to legal process or other
claim;
d. your PIN (Personal Identification Number) has been reported
missing and we have blocked its use;
e. circumstances beyond our control, such as fire, flood,
electrical failure, or malfunction of the central data processing
facility prevent the completion of the transaction despite our
reasonable precautions; or
f. there are other lawful exceptions established by us and you
are given proper advance notice of them.
In no event will the Credit Union be liable for consequential
indirect costs or damages.
FEES
If you perform a Cash Advance at an ATM not owned by us, the
owner of the ATM may charge an ATM transaction fee.
SECURITY
Do not use an ATM unless it appears safe to do so. Do not key
in your PIN if someone is looking. Be sure you take your card and
receipt when you are done. Put your money away quickly and
leave the site.

VISA ACCOUNT AGREEMENT
and
DISCLOSURE
EDUCATIONAL EMPLOYEES CREDIT UNION
Shaded Paragraphs Are Truth in Lending Requirements.
This agreement outlines the terms and conditions of your
Educational Employees Credit Union Visa account and provides
certain disclosure information required by government
regulations. Keep this disclosure with your permanent
documents.
In this document, the words "you," "your," and "yours," refer to
each and all of those who apply for a Visa credit card, sign the
agreement, or all parties who use the card. The words "we," "us,"
"our," “Credit Union,” and “EECU” refer to the Educational
Employees Credit Union. The term "card" refers to the Visa
credit card received with this agreement and any duplicates
and/or renewals we issue. The term "account" refers to your Visa
credit card line of credit account with us.
You acknowledge receipt of a copy of this Visa Account
Agreement and Disclosure. By using the card, any access
device, or by authorizing another person to use your account,
you agree to and accept the terms as stated.
GENERAL TERMS
The terms of this agreement must be read together as part of the
whole agreement. When the singular is used the plural is implied
if there is more than one signer. If any part of this agreement is
found to be invalid the other parts shall remain in effect.
Any borrower who receives a card issued under this agreement
must be a member of this Credit Union.
YOUR RESPONSIBILITY
If your application is approved, each applicant will receive a card
and will be able to use the account. The applicants may also
receive Visa convenience checks from time to time at the Credit
Union's option. Each applicant is liable to repay the account
under the terms of this agreement.

Federally Insured by NCUA
©EECU
(V.2.22.2010)

DISC 2 25M (12/15)

M-116986

You agree to make your payments when due, and in an amount

or more, we will refund it to you on your written request. If we do
not receive a refund request, we will automatically post the credit
to your EECU share savings account. We reserve the right to
delay increasing your credit limit or delay disbursing credit
balance refunds until final collection of non-cash payments on
your account for the maximum period allowed by law.
DEFAULT
You will be in default if you fail to make any Minimum
Payment when due in the proper amount, or if you fail to live
up to the terms of this agreement. You will also be in default
if your creditworthiness materially declines, you become
insolvent, you file for bankruptcy relief, you die, or you cease
to be a member of the Credit Union. In addition, you will be
in default if you have made misleading or incorrect
statements or material omissions of information in your
credit application, or you fail to notify the Credit Union of a
change of your employment, your name, or your address.
Even if the Credit Union accepts a late payment or a partial
payment, we are not waiving our right to accelerate payment
of the account and declare the entire unpaid balance due.
We have the right to demand immediate payment of your full
account balance if you default, subject to our giving you any
notice required by law. You agree to pay our reasonable
collection costs before we take legal action. If we take legal
action to collect what you owe, you agree to pay our
reasonable attorney's fees and court costs, whether the
action we take is a collection suit, an action to enforce a
judgment against you, or an action to protect our interests if
you become a bankruptcy debtor. Collection costs and
attorney's fees will post to your Visa account balance as
Cash Advances and bear interest at the rate applicable to
your Visa account until paid in full.

CHANGES IN AGREEMENT TERMS
Your EECU Visa Account Agreement and Disclosure is your
agreement with EECU governing your credit card transactions,
even though sales and Cash Advance slips and other
documents you sign related to your transactions may have
different terms printed on them. This Agreement can only be
modified by a writing signed by an authorized EECU
representative, an official EECU change in terms notice, or the
order of a court to whose jurisdiction we are subject, such as
a bankruptcy court. No oral statements by EECU employees
can alter the terms of this Agreement.
Changes in terms, unless favorable to you, will generally apply
only to transactions made after the effective date of the
change, as specified by applicable state and federal laws and
regulations. If required by law, we will permit you to reject
certain types of changes, by providing the Credit Union with an
opt-out notice and closing your account. You would then be
permitted to repay any balance on the account under the
terms in effect prior to the changes or as permitted by law.
CANCELLATION/TERMINATION OF AGREEMENT
You or any jointly obligated party may cancel this agreement at
any time by notifying us in writing. If we have given you a
written notice of cancellation and you wish to have your

account re-evaluated for a new line of credit, you must reapply
and be approved.

Notify Us in Case of Errors or Questions About Your
Statement or Electronic Transfers

We may reduce your credit line from time to time, or with good
cause, revoke your card and terminate this agreement. We will
give you thirty days' notice before we reduce or terminate your
account without cause. But as indicated, if you breach this
agreement we can terminate it without prior notice to you.
Termination by either of us does not affect your obligation to
pay the account balance, including finance charges. Cards
and loan drafts remain our property and you must recover and
surrender to us all cards and loan drafts upon our request and
upon termination of this agreement.

If you think your statement or other documentation is wrong or
if you need more information about a transaction on your
statement, write us on a separate sheet at: Educational
Employees Credit Union, Card Services, P.O. Box 5242, Fresno
CA 93755-5242. Write to us as soon as possible. We must hear
from you no later than 60 days after the error appeared on the
first statement. You can telephone us at (559) 437-7700 or toll
free at (800) 538-EECU, but doing so will not preserve your
rights.

CREDIT INFORMATION RETAINED AND PROVIDED TO
OTHERS
You authorize us to investigate your credit standing when
opening, renewing, or reviewing your account, and you
authorize us to disclose information regarding your account to
credit bureaus and other creditors who inquire of us about your
credit standing, to the extent authorized by law.
As required by law, you are hereby notified that a negative
credit report reflecting on your credit record may be submitted
to a credit reporting agency, if you fail to fulfill the terms of your
credit obligation.
PERMISSION TO CONTACT YOU
By providing your telephone number you give the Credit Union
(and its agents, third party representatives and service
providers) permission to contact you regarding your accounts,
transactions and services using live representatives,
automated dialing services, prerecorded messages and text
messages. You give the Credit Union permission to leave
messages, including pre-recorded/artificial voice messages,
relating to your accounts, transactions and services. If you
provide a cellular/mobile number you understand that your
carrier may charge fees to receive calls, messages or texts.
You agree to, at all times, provide the Credit Union with at least
one telephone number at which you can be reached during
business hours.

YOUR BILLING RIGHTS
KEEP THIS NOTICE FOR FUTURE USE
STATE AND LOCAL LAW: The following summary of your
rights under federal law does not cover all rights you may
have under State and Local law. If, under State or local law,
you have a longer period of time in which to send an inquiry
to the Credit Union concerning your statement, reliance on
any such longer time period may result in your losing
important rights which could be preserved by acting more
promptly under federal law. State or local provisions, if any,
only become operative upon the expiration of the time
period provided by Federal Regulation Z for submitting a
proper written notification of an error. This notice contains
important information about your rights and responsibilities
under the Fair Credit Billing Act.

In your letter, give us the following information:
• Your name and account number.
• The dollar amount of the suspected error.
• A description of the error and explanation of why you believe
there is an error. If you need more information, describe the
item you are not sure about.
How to Stop Payment of a Pre-authorized Electronic
Fund Transfer
If you have authorized us to make your Visa payment
automatically from your share draft account, you can stop the
payment on any amount you think is wrong. To stop payment
you must contact us in writing within 3 business days before
the automatic payment is scheduled to occur. If you telephone
your request, we will require you to confirm your verbal request
in writing. If you order us to stop one of these payments 3
business days or more before the transfer is scheduled, and
we do not do so, we will be liable for your losses or damages
up to the amount of the transfer.
Your Rights and Our Responsibilities After We Receive
Your Written Notice of Error
We must acknowledge your letter within 30 days, unless we have
corrected the error by then. Within 90 days, we must either correct
the error or explain why we believe the statement is correct.
After we receive your letter and if you have not yet paid the
disputed amount, we cannot try to collect any amount you
question, or report you as delinquent. We can continue to bill
you for the amount you question, including finance charges,
and we can apply any unpaid amount against your credit limit.
You do not have to pay the questioned amount while we are
investigating, but you are still obligated to pay the parts of your
statement that are not in question.
If we find that we made a mistake on your statement, you will not
have to pay any finance charges related to any questioned
amount. If we did not make a mistake, you may have to pay the
finance charge, and you will have to make up any missed
payments on the questioned amount. In either case, we will send
you a statement of the amount you owe and the date that it is due.
If you fail to pay the amount that we think you owe, we may
report you as delinquent. However, if our explanation does not
satisfy you and you write to us within 10 days telling us that you
still refuse to pay, we must tell anyone we report you to that you
have a question about your statement. We must tell you the
name of anyone we reported you to and we must let them
know when the matter has been settled.

Special Rule for Credit Card Purchases
If you have a problem with the quality of property or services
that you purchase with a credit card and you have tried in good
faith to correct the problem with the merchant, you may have
the right not to pay the remaining amount due on the property
or services. There are two limitations on this right:
a) You must have made the purchase in your home state, or if
not within your home state within 100 miles of your current
mailing address; and
(b) The purchase price must have been more than $50. These
limitations do not apply if we own or operate the merchant,
or if we mailed you the advertisement for the property or
services.
Under California law our right to recover outstanding credit
extended to you for Purchases is subject to any defenses that
you have against the seller, if:
1. The purchase price of the item in question exceeded $50;
2. The purchase was made in California;
3. You made a written demand on the retailer and made a
good faith attempt to get satisfaction of your complaint;
and
4. You notify us, in writing, of the name of the seller, the date
of purchase, the price paid, the goods or services
purchased, the nature of your defense and the acts which
you took to obtain satisfaction from the seller.
The amount to which the defense applies is limited to the
amount outstanding on the purchase as well as late charges
and finance charges at the time the written demand is
received by us. This remedy is the only one you have against
us. Your rights are limited to those circumstances outlined in
California Civil Code § 1747.90. Purchases with cash or check
are not included in this section, even though you used your
credit card to validate your credit. We cannot penalize you by
either giving out unfavorable credit information about you or
canceling or refusing to renew your credit card solely because
you obtained relief under the remedies you have for correcting
billing errors.
TERMS APPLICABLE TO VISA PLATINUM MYEECU
REWARDS PROGRAM
Visa Platinum cardholders may participate in the MYEECU
Rewards program which is governed by the Program Rules
outlined in the CURewards brochure. The following additional
rules apply to the CURewards program:
a. No points are earned for a balance transfer from an existing
EECU Visa account or from another credit card.
b. Points will accrue over five calendar years and will expire on
a first-in-first-out basis annually; points earned in calendar
year one will expire as of the last day of calendar year five.
(For example, points earned in 2014 will expire December
31, 2019; points earned in 2015 will expire December 31,
2020, etc.).
c. If your account is closed or becomes inactive for 18
consecutive months or if you fail to make the minimum
payment due by the payment due date for two consecutive
billing periods, your points may be forfeited.

ATM DISCLOSURE
You may use your card to obtain Cash Advances through
Automated Teller Machines that are part of a nationwide network
of Visa ATMs. These special provisions apply.
AVAILABLE SERVICES
1. The amount of cash you can obtain may vary depending on
the ATM you use.
2. ATM service is generally available seven days a week, 24
hours a day.
DOCUMENTATION OF TRANSACTIONS
Cash Advances using your Visa card at an ATM will be shown on
a transaction receipt and on your periodic statement.
CREDIT UNION LIABILITY
If we do not properly complete a transaction according to our
agreement with you, we will be liable for your direct losses or
damages. However, there are some exceptions. We will not be
liable, if:
a. through no fault of ours, you do not have sufficient available
credit to make the transaction;
b. the ATM system was not working properly and you knew
about the breakdown when you started the transaction;
c. the money in your account is subject to legal process or other
claim;
d. your PIN (Personal Identification Number) has been reported
missing and we have blocked its use;
e. circumstances beyond our control, such as fire, flood,
electrical failure, or malfunction of the central data processing
facility prevent the completion of the transaction despite our
reasonable precautions; or
f. there are other lawful exceptions established by us and you
are given proper advance notice of them.
In no event will the Credit Union be liable for consequential
indirect costs or damages.
FEES
If you perform a Cash Advance at an ATM not owned by us, the
owner of the ATM may charge an ATM transaction fee.
SECURITY
Do not use an ATM unless it appears safe to do so. Do not key
in your PIN if someone is looking. Be sure you take your card and
receipt when you are done. Put your money away quickly and
leave the site.

VISA ACCOUNT AGREEMENT
and
DISCLOSURE
EDUCATIONAL EMPLOYEES CREDIT UNION
Shaded Paragraphs Are Truth in Lending Requirements.
This agreement outlines the terms and conditions of your
Educational Employees Credit Union Visa account and provides
certain disclosure information required by government
regulations. Keep this disclosure with your permanent
documents.
In this document, the words "you," "your," and "yours," refer to
each and all of those who apply for a Visa credit card, sign the
agreement, or all parties who use the card. The words "we," "us,"
"our," “Credit Union,” and “EECU” refer to the Educational
Employees Credit Union. The term "card" refers to the Visa
credit card received with this agreement and any duplicates
and/or renewals we issue. The term "account" refers to your Visa
credit card line of credit account with us.
You acknowledge receipt of a copy of this Visa Account
Agreement and Disclosure. By using the card, any access
device, or by authorizing another person to use your account,
you agree to and accept the terms as stated.
GENERAL TERMS
The terms of this agreement must be read together as part of the
whole agreement. When the singular is used the plural is implied
if there is more than one signer. If any part of this agreement is
found to be invalid the other parts shall remain in effect.
Any borrower who receives a card issued under this agreement
must be a member of this Credit Union.
YOUR RESPONSIBILITY
If your application is approved, each applicant will receive a card
and will be able to use the account. The applicants may also
receive Visa convenience checks from time to time at the Credit
Union's option. Each applicant is liable to repay the account
under the terms of this agreement.

Federally Insured by NCUA
©EECU
(V.2.22.2010)

DISC 2 25M (12/15)

M-116986

You agree to make your payments when due, and in an amount

